<html>
<title> - THE FIGHT AGAINST ISIS: BUILDING THE COALITION AND ENSURING MILITARY EFFECTIVENESS</title>
<body><pre>[Senate Hearing 114-197]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-197

 THE FIGHT AGAINST ISIS: BUILDING THE COALITION AND ENSURING MILITARY 
                             EFFECTIVENESS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-368 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                              (ii)        

  



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Bob Menendez, U.S. Senator From New Jersey..................     2
Gen. John R. Allen, USMC (Retired), Special Presidential Envoy 
  for the Global Coalition To Counter ISIL, U.S. Department of 
  State, Washington, DC..........................................     3
    Prepared statement...........................................     7
    Responses to questions submitted for the record by:
      Senator Bob Corker.........................................    34
      Senator Marco Rubio........................................    36

                                 (iii)
 
                 THE FIGHT AGAINST ISIS: BUILDING THE 
                    COALITION AND ENSURING MILITARY 
                             EFFECTIVENESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:31 p.m., in 
room SD-419, Senate Office Building, Hon. Bob Corker (chairman 
of the committee) presiding.
    Present: Senators Corker, Rubio, Johnson, Flake, Gardner, 
Perdue, Isakson, Paul, Barrasso, Menendez, Boxer, Cardin, 
Shaheen, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I call this meeting of the Foreign Relations 
Committee to order, and I want to thank General Allen for being 
here. I know he has a hard stop today at 3:30, and that he has 
meetings with CENTCOM later that he is traveling to. But I want 
to thank him for being here, and I will properly introduce him 
in just a moment.
    The President has sent forward a request for the 
authorization for the use of military force. Because of the 
nature and the way that this happened in that the conflict has 
been ongoing for about 6 months now, I think one of the things 
that most people here are concerned about is that there is a 
level of confidence in what we are doing, and that it is going 
to achieve the stated goals that the President has laid out. 
And I do not know of anybody more equipped to come before us 
today than General Allen, who has served our country with great 
distinction.
    I think many people feel decently well about what is 
happening in Iraq. I think there are a lot of questions 
relative to Syria. My sense is today you will have a number of 
questions regarding that. And we hope that what you will do, 
General Allen, is give us an honest assessment as to the end 
state that we would like to see happen in Iraq and Syria when 
we complete the activities that we are involved in, and 
understand the political and military strategy that we have 
underway, and to give us a little sense of timeframe relative 
to the various activities that are necessary.
    I was just in Iraq last week in both Baghdad and Erbil with 
our Kurdish friends, and then over in Ankara with our Turkish 
friends, and I will say that the Shia militias are everywhere 
in Iraq, as people know. General Suleimani, who is head of the 
Quds Force for Iran, has now become a celebrity in Iraq. And I 
have to say it feels very strange to be there knowing that much 
of the activity that we have underway, while it is necessary, 
is really to Iran's benefit. And I know there are a lot of 
concerns that after this activity is completed if we are 
successful with ISIS, which I know we will be, in essence, the 
next issue is going to be dealing with security of forces there 
with the Shia militias.
    I was happy to see that Turkey has gone ahead and signed an 
agreement, train and equip agreement. I am sure that is 
something that you have made happen, and thank you for that. At 
the same time, I know there are a lot of concerns right now 
about how we deal with Assad's barrel bombs as we train and 
equip these individuals. How do we protect them from the barrel 
bombs, which cause them to diminish in a greater number than 
they can be trained? And I am sure that you are going to talk 
about that.
    There is a lot of discussion, as you know, on the ground 
there about an air exclusion zone--I know you will have some 
questions about that--and just no-fly discussions. It may be 
taking place to draw Turkey more into what is happening in 
Syria itself, which I think most of it--most of us believe is 
very important.
    So as we--as I close, I just want to say we owe it to our 
nation as we consider this to know that the full range of 
America's elements of national power, diplomatic, economic, and 
military means are aligned in such a way to get to the 
administration's stated goals. Because of the nature of this 
decision, one, again, this being made after the fact, all of us 
need to have confidence that the administration is truly 
committed to achieving the stated goals that they have laid 
out. And I think your testimony here is going to be very 
valuable to us.
    And with that, I would like to turn to our distinguished 
ranking member, Senator Menendez, who has been a great partner 
on all of these issues.

                STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman. Thank you 
for calling the hearing for our work forward on this. And, 
General Allen, welcome back to the committee, and thank you for 
your distinguished service to our country in so many different 
ways, including your present position as a special envoy.
    Although this hearing is not focused on the 
administration's proposed authorization for the use of military 
force against ISIL, it is by nature an opportunity to probe the 
dynamics of our current anti-ISIL strategy that will inform our 
discussion of an AUMF, and specifically whether a strategy that 
relies on U.S. air power and logistics, intelligence, and 
training support, but not on U.S. troops on the ground, would 
be successful in achieving our ultimate goal to end the 
barbaric rampage of ISIL.
    There are those who believe that it is up to our local 
partners on the ground to ultimately take this war across the 
finish line. I have heard from others who believe that ISIL 
cannot be defeated without a significant U.S. ground 
commitment. So I would like to hear from you, General Allen, 
where you come down on what will be required to eradicate ISIL, 
given that we hear reports from Secretary Carter's meetings in 
Kuwait that while the anti-ISIL strategy does not require 
fundamental recalibration, our coalition partners can be doing 
more.
    My view personally is that the United States must help 
combat ISIL and restore stability to the region, and we must 
follow through on our commitments to our Arab partners. But 
large-scale U.S. ground forces at this time in this complex 
political and military atmosphere would at the end of the day 
decisively increase the prospect of losing a long war.
    Now, I appreciate and want to salute all the men and women 
who are waging a campaign against ISIL, particularly from the 
air, all of the airstrikes that have, according to your own 
testimony, inflicted significant damage. And those are 
promising, and we salute the men and women who do that. But our 
effectiveness in combating this threat I think cannot be 
measured only in the number of sorties flown or bombs dropped.
    So today's hearing is a welcome opportunity to step back 
and assess the big picture, the state of the coalition, what 
will it ultimately take to defeat ISIL, and what we know, I 
think, will be a multiyear effort that will take billions of 
dollars, significant military assets, and the painstaking 
patience of diplomacy matched to all of those efforts.
    We look forward to your insights, and we welcome you back 
to the committee.
    The Chairman. Our distinguished witness today is Gen. John 
Allen, the Special Presidential Envoy for the Global Coalition 
to Counter ISIS. General Allen is a retired U.S. Marine four-
star general, former commander of ISAF and U.S. forces in 
Afghanistan. Upon his retirement from the Marine Corps, he was 
appointed as the senior advisor to the Secretary of Defense on 
Middle East security. He is currently on a leave of absence 
from Brookings Institution, where he is codirector of the 21st 
Century Security and Intelligence Center.
    We thank you for your frankness. We thank you for your 
service to our country. We thank you for being here today. I 
know you are going to have an unusually long opening comment, 
which we appreciate, and then we will turn to questions.

       STATEMENT OF GEN. JOHN R. ALLEN, USMC (RETIRED), 
           SPECIAL PRESIDENTIAL ENVOY FOR THE GLOBAL 
     COALITION TO COUNTER ISIL, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    General Allen. Chairman Corker, thank you, and Ranking 
Member Menendez, it is good to be back today. Esteemed members 
of the committee, I want to thank you for providing me the 
opportunity to update you on the progress of the Global 
Coalition to Counter ISIL. And let me just add as well my deep 
and sincere thanks for all that this committee has done for our 
Department of State, for our diplomats, and for the members of 
the Department who are serving with such great courage and 
capability at the far-flung locations of American influence. 
This committee has done marvelous work to support them, and I 
want to thank you very much for that.
    I just returned to Washington yesterday afternoon from 
Kuwait where, at the request of Secretary of Defense Ashton 
Carter, I joined a group of more than 30 senior U.S. diplomats 
and military commanders for a wide-ranging discussion on our 
counter-ISIL strategy. While my role as senior special 
presidential envoy is concerned with the consolidation and the 
integration of the coalition contributions, not the 
coordination of its military activities, I remain nonetheless 
closely synced with my colleagues in the military, and we meet 
regularly with other departments and agencies involved to 
review the progress of the counter-ISIL activities.
    In addition, we are also discussing the coalition's next 
step now that we have largely achieved the objectives of the 
campaign's first phase, which was to blunt ISIL's strategic 
operational and tactical momentum in Iraq. Through over 2,500 
coordinated coalition airstrikes in support of our partners on 
the ground, we have degraded ISIL's leadership, its logistical 
and operational capabilities, and we are denying it essential 
sanctuary in Iraq from which it can plan and execute attacks.
    With New Zealand's very welcome announcement yesterday that 
it will provide military trainers to build the capacity of the 
Iraqi Security Forces, a dozen coalition nations now 
participating in these efforts are operating from multiple 
sites across Iraq. Still the situation in Iraq remains complex, 
and the road ahead will be challenging and nonlinear. 
Considering where we were only 8 months ago, one can begin to 
see how the first phase of the strategy is delivering results.
    As I appear before this esteemed committee today, it is 
important to recall that in June of last year, ISIL burst into 
the international scene as a seemingly irresistible force. It 
conquered a city, Mosul, of 1.5 million, then poured south down 
the Tigris River Valley toward Baghdad, taking cities, and 
town, and villages along the way. Outside Tikrit, it rounded up 
and massacred over 1,000 Iraqi army recruits, and to the west 
it broke through the border town of Al-Qaim and poured east 
toward Baghdad. ISIL's spokesman, Abu Mohammad al-Adnani, 
vowed, ``The battle will soon rage in Baghdad and in the holy 
city of Karbala.''
    Shortly thereafter, ISIL launched a multiple-pronged attack 
further into northern Iraq, massacring minority populations, 
enslaving hundreds of women and girls, surrounding tens of 
thousands of Yazidis on Sinjar Mountain, and opening clear 
route to Erbil, the region's capital.
    Then the United States acted. Since our first airstrikes in 
August, ISIL's advance has been blunted, and they have been 
driven back from the approaches to Baghdad and Erbil. ISIL lost 
half of its Iraq-based leadership, thousands of hardened 
fighters, and is no longer able to amass and maneuver 
effectively, and to communicate as an effective force. Iraqis 
are also standing on their feet. The Kurdish peshmerga have 
recovered nearly all of the ground lost in August, and the 
peshmerga have also taken control of the Mosul Dam, the Rabiya 
Crossing with Syria, the Sinjar Mountain, Zumar, and the Kisik 
Road junction, which eliminated a supply route for ISIL from 
Syria to Mosul. These forces also broke the siege of the Bayji 
oil refinery and have begun to push north into the Tigris 
Valley.
    To the west, Sunni tribes are working with Iraq Security 
Forces to retake the land in the heart of Al-Anbar, a land I 
know well. And just last week under the cover of bad weather, 
ISIL launched an attack on the town of al-Baghdadi near the Al-
Asad Airbase in Al-Anbar, where our forces are located with the 
Danes and the Australians to help to train Iraqi soldiers and 
tribal volunteers.
    ISIL, as it has done over and over again, rampaged through 
the town, killing civilians and driving hundreds of families 
into the safe haven of the airbase. But the Iraqis did not sit 
idle. They organized and fought back. Prime Minister Abadi went 
to the Joint Operations Center in Baghdad and ordered an 
immediate counter attack. The Minister of Defense flew to Al-
Asad to organize available forces, and Iraq army commanders 
sent an armored column from Baghdad to road march to al-
Baghdadi to join the attack. And Sunni tribal volunteers 
organized to support and, in some cases, led the attack.
    Today, much of al-Baghdadi is back in the hands of these 
local and tribal forces. And I was at Al-Asad just last month, 
and my deputy, Brett McGurk, was there just 3 days ago, I would 
tell you that all Americans would be proud to see what our 
troops are doing there, helping the Iraqis and the tribes to 
join the battle against ISIL. But this is only the start, and 
ISIL remains a substantial foe.
    But any aura of the invincibility of ISIL has been 
shattered. ISIL is not invincible. It is defeatable, and it is 
being defeated by Iraqi Forces defending and taking back their 
towns, and their cities, and ultimately their country with the 
support of the United States and the coalition. And 
importantly, very importantly, the aura of the so-called 
caliphate is destroyed, and the future of the so-called Caliph 
Abu Bakr Baghdadi is very much in doubt.
    Because we lack the same kind of partners on the ground in 
Syria, the situation there is more challenging and more 
complex. Still, we are working closely with regional partners 
to establish sites for training and equipping vetted and 
moderate Syrian opposition elements to train approximately 
5,000 troops per year for the next 3 years. These and other 
military aspects of the campaign will inevitably receive the 
most attention, but as I have seen in the four previous 
coalition efforts in which I have been involved, it will 
ultimately be the aggregate pressure of the campaign activity 
over multiple, mutually supporting lines of effort that will 
determine the campaign's success.
    This is why when I visit a coalition capital and when I 
meet with a Prime Minister, or a King, or a President, I 
describe the coalition's counter-ISIL strategy as being 
organized around multiple lines of effort: the military line to 
deny safe haven and provide security assistance, disrupting the 
flow of foreign fighters, disrupting ISIL's financial 
resources, providing humanitarian relief and support to its 
victims, and counter messaging or defeating the idea of ISIL.
    Since mid-September I have traveled to 21 partner capitals, 
several of them multiple times, to meet with national 
leadership there. And in that short span we have assembled a 
global coalition of 62 nations and international organizations. 
Of the many recent visits, leaders have expressed heightened 
concern for the immediate and generational challenge presented 
by foreign fighters, and rightly so. Through capacity building 
in the Balkans, criminal justice efforts in North Africa, and 
changes to laws in more than a dozen countries, partners are 
working together to make it more difficult for citizens to 
fight in Syria and Iraq.
    Even with these expanded measures, foreign fighters 
continue to make their way to the battlefield. We must continue 
to harmonize our border and customs processes and promote 
intelligence sharing among our partners. This kind of 
information-sharing has allowed the coalition to make 
significant gains on synchronizing practices to block ISIL's 
access to banks within the region and globally. This includes 
stemming the flow of private donations and restricting ISIL's 
ability to generate oil revenues. We are now expanding these 
efforts to counter ISIL's access to local and informal 
financial networks.
    The coalition is also supporting the United Nations' 
efforts to provide food and aid and supply critical assistance 
to protect the vulnerable children, and women, and men from 
harsh winter conditions in the region. The ravaged communities 
ISIL leaves in its wake bear witness to ISIL's true identity, 
one we are actively working with coalition partners to expose 
with Arab partners taking a leading role.
    ISIL was attractive to many of its recruits because of its 
proclamation of the so-called caliphate and the sense of 
inevitability that it promoted. The last 6 months have amply 
demonstrated that ISIL is really operating as a criminal gang 
and a death cult, which is under increasing pressure as it 
sends naive and gullible recruits to die by the hundreds.
    Coalition partners are working together as never before to 
share messages, engage traditional and social media, and 
underscore the vision of religious leaders who reject ISIL's 
millennialist vision. As the President announced recently, we 
are partnering with the United Arab Emirates to create a joint 
messaging center that will contest ISIL's vigorous information 
offensive and extremist messages for the long term. And we are 
seeking to create a network of these centers, a global network 
where a regional consortia of nations can dispute and 
ultimately dominate the information space filled with ISIL's 
messaging.
    The President has outlined a framework for the authorities 
he believes will be necessary to pursue this long-term campaign 
with his formal request to the Congress for the authorization 
for the use of military force against ISIL. The AUMF request 
foresees using our unique capabilities in support of partners 
on the ground instead of through large-scale deployments of 
U.S. ground forces. The President has asked for flexibility to 
fight an adaptable enemy, one that hopes to expand his reach 
beyond the borders of Iraq and Syria.
    Taking the fight to ISIL requires that we be flexible and 
patient in our efforts. It also requires close coordination 
with this committee and with the Congress so that we are 
constantly evaluating our tactics and our strategy, and that we 
are resourcing them appropriately.
    Chairman and Ranking Member Menendez, I thank you for the 
opportunity to be before this committee today and to continue 
that process of coordination and consultation with you. And I 
look forward to taking your questions.
    [The prepared statement of General Allen follows:]

                Prepared Statement of Gen. John R. Allen

    Chairman Corker, Ranking Member Menendez, esteemed members of the 
committee, thank you for providing me the opportunity to update you on 
the progress of the Global Coalition to Counter ISIL.
    I just returned to Washington late yesterday from Kuwait, where at 
the request of Secretary of Defense Ashton Carter, I joined a group of 
more than 30 senior U.S. diplomats and military commanders for a wide 
ranging discussion of the counter-ISIL strategy and progress to date.
    While my role as Special Envoy is concerned with the consolidation 
and integration of coalition contributions, not the coordination of its 
military activities, I remain closely synced with my colleagues in the 
military, and we meet regularly with other departments and agencies 
involved to review progress of the coalition's counter-ISIL activities.
    In addition, we are discussing the coalition's next steps now that 
we have largely achieved the objective for the campaign's first phase: 
to blunt ISIL's strategic, operational, and tactical momentum in Iraq.
    Through over 2,500 coordinated coalition airstrikes in support of 
our partners on the ground, we have degraded ISIL's leadership, 
logistical, and operational capability, and are denying it a sanctuary 
in Iraq from which it can plan and execute attacks.
    With New Zealand's announcement yesterday that it will provide 
military trainers to build the capacity of Iraqi Security Forces, a 
dozen coalition nations are now participating in these efforts in 
multiple sites across Iraq.
    Still, the situation in Iraq remains extraordinarily complex, and 
the road ahead will be challenging and nonlinear. But considering where 
we were only 8 months ago, one begins to see how this first phase of 
our strategy is delivering results.
    In June of last year, ISIL burst into the international scene as a 
genocidal and seemingly unstoppable juggernaut. It conquered a city, 
Mosul, of 1.5 million, then poured south toward Baghdad, taking cities, 
towns, and villages along the way. Outside Tikrit, it rounded up and 
massacred over 1,000 Iraqi Air Force recruits. To the west, it broke 
through the border town of Al-Qaim, and poured east toward Baghdad. 
ISIL's spokesman, Abu Mohammed al-Adnani, vowed: ``The battle would 
soon rage in Baghdad and [in the holy city of] Karbala.'' Shortly 
thereafter, ISIL launched a multiple pronged attack further into 
northern Iraq, massacring minority populations, enslaving hundreds of 
women and girls, surrounding tens of thousands of Yazidis at Sinjar 
mountain, and opening a clear route to Erbil, the region's capital.
    Then the United States acted. Since our first airstrikes in August, 
ISIL's advance has been largely blunted, and has been driven back away 
from the regional capitals of Baghdad and Erbil. It has also lost half 
of its Iraq-based leadership and thousands of hardened fighters, and is 
no longer able to mass, maneuver, and communicate as an effective 
force.
    Iraqis are also standing on their feet. The Kurdish peshmerga have 
recovered nearly all of the ground lost in August. Peshmerga have taken 
control of Mosul Dam, Rabiya border crossing, Sinjar Mountain, Zumar, 
and the Kisik road junction, which eliminated a supply route for ISIL 
from Syria to Mosul. Iraqi Security Forces with popular volunteers have 
secured the routes to Baghdad, and the capital is now seeing the lowest 
levels of violence it's seen in years. These forces also broke the 
siege of the Bayji oil refinery, and have begun to push north up the 
Tigris Valley. To the west, Sunni tribes are working with Iraqi 
Security Forces to retake land in the heart of Anbar province, land I 
know well.
    Just last week, under the cover of bad weather, ISIL launched an 
attack the town of Al-Baghdadi, near Al-Asad Airbase, where our forces 
are located with the Danes and Australians to help train Iraqi soldiers 
and tribal volunteers. ISIL, as it has done over and over again , 
rampaged through the town, killing civilians, and driving hundreds of 
families into exile on the airbase. But the Iraqis did not sit idle; 
they organized, and fought back.
    Prime Minister Abadi went to the Joint Operations Center in Baghdad 
and ordered a counterattack. The Minister of Defense flew to Al-Asad to 
organize available forces. Iraqi Army commanders sent an armored column 
from Baghdad to join the attack. Sunni tribal volunteers organized to 
support and in some cases lead the attack. Today, much of Al-Baghdadi 
is back in the hands of these local tribes and security forces. I was 
at Al-Asad Airbase last month, and my deputy, Brett McGurk, was there 3 
days ago. All Americans would be proud to see what our troops are doing 
there, helping the Iraqis and the tribes join the battle against ISIL. 
This is only a start, and ISIL will remain a formidable foe: but any 
aura of invincibility has been shattered. ISIL is not invincible, it is 
defeatable, and is being defeated--by Iraqi forces, defending and 
taking back their towns, villages, and cities with the support of the 
United States and the coalition.
    Because we lack the same kind of partners on the ground in Syria, 
the situation is more challenging and complex there. Still, we are 
working closely with regional partners to establish sites for training 
and equipping vetted, moderate Syrian opposition elements, to train 
approximately 5,000 troops per year for the next 3 years. On February 
19, we formalized a framework on Turkey's support for the Department of 
Defense's train and equip activities for the moderate Syrian 
opposition.
    These and other military aspects of the campaign will inevitably 
receive the 
most attention. But as I saw in Afghanistan during my command there, in 
Iraq in 
Al-Anbar in 2007-08, and in recovery efforts for the 2004 South Asian 
tsunami, the military effort is essential but not sufficient.
    It will ultimately be the aggregate pressure of the coalition's 
activity over multiple, mutually supporting lines of effort that will 
determine a campaign's success.
    That is why when I visit a coalition capital and meet with a prime 
minister, a king, or president, I describe the coalition component of 
the counter-ISIL strategy as being organized around multiple lines of 
effort including the military line to deny safe haven and provide 
security assistance, disrupting the flow of foreign fighters, 
disrupting ISIL's financial resources, providing humanitarian relief 
and support to its victims, and countermessaging . . . or defeating 
ISIL as an idea.
    Since mid-September, I have traveled to 21 partner capitals, 
several of them multiple times, to meet with the national leadership. 
In that short span, we have assembled a global coalition of 62 nations 
and international organizations.
    Among Coalition members, disrupting the flow of foreign fighters is 
an urgent concern in all of these conversations . . . and rightly so. 
There is no question that the thousands of young men who have traveled 
to fight in Syria and Iraq present a truly unprecedented, generational 
challenge.
    Today, coalition members are coming together to take the 
coordinated actions required to meet this growing threat.
    More than a dozen nations have changed laws and penalties to make 
it more difficult to travel and fight in Syria and Iraq. Through 
capacity building in the Balkans, criminal justice efforts in North 
Africa, and a 20 million euro investment from the European Union to 
engage at-risk communities, governments are taking a series of 
concerted actions.
    Even with these expanded measures, foreign fighters continue to 
stream to the battlefields of Syria and Iraq . . . so we are enhancing 
our cooperation with key international partners to confront this 
threat. We must continue to improve how we harmonize border and customs 
processes, track potential and actual fighters en route to the battle, 
and share intelligence with partners.
    This kind of information-sharing and creative thinking between 
partners is also vital in meeting a related and similarly urgent 
challenge: constraining ISIL's access to financial support.
    Here, the coalition has made significant gains in synchronizing 
practices to block ISIL's access to banks, both in the region and 
globally. This includes stemming the flow of private donations and 
limiting ISIL's financial options by restricting its ability to 
generate oil revenues. We are now expanding these efforts to counter 
ISIL's access to local and informal financial networks.
    As we come together to curb ISIL's financial support, we are also 
providing urgent assistance to ISIL's victims.
    The coalition is supporting the United Nations' efforts to provide 
food aid and supply critical assistance to protect vulnerable women, 
children and men from harsh winter conditions. Saudi Arabia alone has 
contributed $500M in aid in support of the U.N. appeal for Iraq, and 
has provided more than a dozen medical camps; numerous partners have 
made substantial investments in education for refugee children and in 
host communities. The United States alone has contributed close to $4 
billion in assistance for many of the 13 million displaced Iraqis and 
Syrians. But we and our partners must do more.
    The communities and refugees left in ISIL's wake bear witness to 
ISIL's true identity, one we are actively working with coalition 
partners to expose, with Arab partners taking a leading role.
    ISIL is attractive to many of its recruits because it proclaimed 
the Caliphate, and emerged onto the world stage with self-proclaimed 
inevitability and invincibility. But the last 6 months have amply 
demonstrated that ISIL is little more than a criminal gang and death 
cult, which now finds itself under increasing pressure, sending naive 
and gullible recruits to die by the hundreds.
    Our coalition partners are working together as never before to 
share messages, engage traditional and social media and underscore the 
vision of religious leaders and the international community that 
rejects ISIL's millennialist vision. As the President announced 
recently, we are partnering with the U.A.E. to create a joint messaging 
center that will contest ISIL's vigorous offensive in the information 
battlespace.
    In confronting these enduring challenges, the coalition can take 
some confidence from what it has already helped to achieve. We as a 
country and as a coalition will inevitably have good days and hard days 
on the battlefield and we are still in the early stages of a long-term 
campaign.
    The President has outlined a framework for the authorities he 
believes will be necessary to pursue this long-term campaign with his 
formal request to Congress for the authorization of the use of military 
force against ISIL. The AUMF request foresees using our unique 
capabilities in support of partners on the ground . . . instead of 
through the use of large-scale deployment of U.S. ground forces. At the 
same time, the President has asked for the flexibility to fight an 
adaptable enemy, one that is expanding its reach and capabilities well 
beyond the borders of Iraq and Syria. Taking the fight to ISIL requires 
that we be flexible and patient in our efforts. It also requires close 
coordination with this committee and with Congress, so that we are 
constantly evaluating our tactics and strategy, and that we are 
resourcing them appropriately.
    This hearing presents an opportunity to continue that process of 
coordination and consultation. I want to thank you again for the 
invitation to speak with you and look forward to taking your questions.

    The Chairman. We thank you for the testimony and for your 
great service to our country.
    Yesterday Senator Kerry testified that he felt like that 
today the administration already has, because of the 2001 AUMF 
and the 2002 AUMF, the authority to conduct the operations that 
are being conducted in Iraq and Syria. Do you agree with that 
assessment?
    General Allen. I do, Chairman.
    The Chairman. Okay. So it is an interesting place that we 
find ourselves where 6 months after conflicts have begun, a new 
AUMF is being offered. And I know that in order to pursue one 
properly through Congress, it is standard process to submit 
one, which I appreciate. But it is an interesting place that 
those authorities already exist.
    The train and equip program that you have been able to 
negotiate, many concerns have been raised about the fact that 
most of the free Syrian opposition initially was targeting 
Assad. That was the reason for their being. Now we are 
organizing these against ISIS, and my understanding is we are 
going against an entirely different recruitment group to do 
that. Are we finding that to be an easy recruitment process?
    General Allen. As we began this, Chairman, we were not 
sure, frankly, how that recruitment process would unfold. Just 
2 days ago I had the opportunity to have a conversation with 
the great soldier that the United States has put against this 
challenge, General Nagata. And I will not go into the details 
of the numbers, but the numbers are much higher than we thought 
actually. And it has been a very encouraging--we have had an 
encouraging sense that there is an interest in this--in this 
outcome.
    The Chairman. So my sense is there are, based on my 
experiences last week, there are larger groups of people that 
are willing to go against ISIS initially in this train and 
equip than some initially thought. Is that correct?
    General Allen. That is correct, Chairman.
    The Chairman. So let me ask you this question. One of the 
big moral dilemmas I think is that as we train and equip these 
folks, we know that Assad is, in fact, barrel bombing other 
members of the Free Syrian Army today. I know that is a loose 
description of who it is that is opposing him. But my 
understanding is there have been significant discussions with 
Turkey over an air exclusion zone in the northwestern Aleppo 
area and a no-fly zone along the border. And that has been the 
issue that has hindered them actually getting more involved in 
the conflict even though they are working with us more fully 
than they have in multiple areas, some of which I will not 
mention here. That has been the issue that has kept them from 
actually getting more involved.
    It is also my understanding that that decision, the 
decision to do that, is at the President's desk. It is at the 
White House, and he has not made a decision yet as to whether 
to engage. Can you update us on that or tell us the effect of 
that decision not being made on Turkey getting more involved in 
the conflict, and helping us with those ground operations you 
were talking about earlier?
    General Allen. Well, I will start by, you know, reciting 
what I have said before with respect to Turkey, and it is we 
have an old friendship with Turkey, and they are an ally. And 
where we began this conversation just some months and where we 
are today, I think there has been significant progress in the 
conversation about Turkey's role in the coalition and all that 
we want to accomplish together, and, in particular, what we 
would like to accomplish in Syria.
    That conversation is not over, but there has been much 
progress. I just met with a Turkish delegation yesterday, and I 
intend to head back to Ankara in the very near future to 
continue that conversation. And part of that conversation 
obviously is those measures or those measures that can be taken 
either collectively or by a larger coalition to provide 
protection for the moderate Syrian elements that we support and 
ultimately will produce over time.
    And I will not get into the specific details of the 
negotiation, but that is a very important part of the 
conversation, and we are going to continue that conversation in 
the future.
    The Chairman. But it is fair to say that there are some 
significant decisions that our government needs to make 
relative to those protections. And if they are made, could 
break a little bit of a logjam relative to greater involvement 
by Turkey. That would be a fair assessment. Is that correct?
    General Allen. It is a fair assessment, Chairman. The 
details of what the conversation can be can lead us in several 
different directions. There was the initial conversation about 
a formal no-fly zone, which was heavily or very specifically 
and purposefully laid out on a map. The real issue is not 
necessarily a no-fly zone. It is how do we protect our allies.
    The Chairman. That is right.
    General Allen. And that is the nature of the conversation. 
And putting all measures necessary to be able to provide for 
that protection is the heart of the conversation that we are 
going to continue to have with the Turks.
    The Chairman. And one final question, and then I will stop 
and turn it over to Senator Menendez. In the event that we 
needed to protect those that we are training and equipping and 
other members of the Free Syrian Army, in the event we needed 
to protect them against Assad barrel bombing them, do you 
believe that is something that needs an additional authority 
other than what is now being requested?
    General Allen. I would have to study that, Chairman. My 
hope is that we would be able to provide the kind of protection 
that they need and they deserve within the authorization that 
we are currently proposing.
    The Chairman. You would want to make sure that we knew that 
that type of authorization was a part of anything we may do.
    General Allen. Oh, I think so, yes, sir. That is going to 
be clearly a part of the outcome.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. General Allen, 
you are a retired U.S. Marine, four-star general. You were the 
former commander of NATO's International Security Assistance 
Force and the U.S. Forces in Afghanistan for about a year and a 
half. And then you became the senior advisor to the Secretary 
of Defense on Middle East security.
    You commanded during that period of time 150,000 U.S. and 
NATO Forces in Afghanistan during a critical period of the war. 
And I put that out there, one, in recognition of that service, 
and, two, in also the framework of my question. What does ``no 
enduring combat forces'' mean?
    General Allen. I think obviously the nature of the 
contingency, or the emergency, or the potential conflict will 
give us the indications of what kinds of measures would need to 
be taken in the aggregate to deal with that emergency, to give 
the President the kinds of options that he needs in order to 
protect the lives of American citizens and American interests 
in the homeland.
    Each one of these emergencies will be different. Each one 
will require a different aggregation of American hard and soft 
power ultimately to solve them. And so, I think it would be 
difficult to put necessarily a level of precision against the 
word ``enduring.'' I think what we will seek to do, and I 
believe this Administration and future administrations would be 
obviously very interested in consulting with the Congress about 
each particular emergency.
    Senator Menendez. I appreciate a consultation. The problem 
is you referenced your answer in the context of emergencies, 
but ``no enduring offensive combat troops'' does not 
necessarily only apply to emergencies. If you send 20,000 
troops there in there for 4 months, is that enduring?
    General Allen. Again, Senator, I think that trying to put a 
specific amount of time on the word ``enduring''----
    Senator Menendez. So it is neither time nor size.
    General Allen. I think we take a full appreciation of what 
we are facing.
    Senator Menendez. Okay.
    General Allen. And I believe that we give the President the 
options necessary in order to deal with the emergency. And 
``enduring'' might only be 2 weeks, but enduring might be 2 
years. I think we need to ensure that we put the right 
resources against the contingency and give us the amount of 
time necessary, ``us'' being all the American people, the time 
necessary to solve the problem.
    Senator Menendez. And I think you have honestly stated the 
challenge that we have. Two weeks is one thing, 2 years is 
another, and this is the problem with the language as it 
exists. There is no clear defining element of the authorization 
given to the President in which hundreds, but then maybe tens 
of thousands of troops could be sent. They could be sent for 
long periods of time.
    That is a challenge. And so, how do we get our arms around 
that, you know. I think I can fairly speak for Democrats. We 
want to fight ISIL. We want to give the President the 
wherewithal to degrade and deter them. But we cannot provide a 
blank check to this and a future President because everything 
that is envisioned goes beyond this President. So I wanted to 
use your expertise to try to put my arms around it, and I see 
the challenge that we have.
    Let me ask you this. Following up on the chairman's 
questions, is it not basically true that unless we buy into 
something that is about getting rid of Assad, Turkey is really 
not going to engage here with us in the way we want them to?
    General Allen. The Turks have not indicated that to me in 
our conversations. I think we share the same goal with respect 
to Syria, and that is the solution to Syria is not going to be 
determined by military force, that they ultimately desire a 
political outcome in Syria that is the will of the Syrian 
people, and that that outcome is one that does not include 
Bashar al-Assad.
    I think we share that goal with Turkey, but I have not had 
in my conversations with the Turks the requirement that we take 
concerted action against Bashar al-Assad as the precondition 
necessarily for the Turks to have any greater role in the 
coalition to deal with ISIL.
    Senator Menendez. Is it not true that Turkey at this point 
still is allowing foreign fighters to cross its borders into 
Syria?
    General Allen. If foreign fighters get across the border 
from Turkey, it is not because the Turks are allowing them. 
Again, I had a conversation with them yesterday. I have watched 
them grip this problem. It is a greater problem than many of us 
had imagined at the beginning. They have attempted to 
strengthen their border crossing protocols. We are seeking 
greater information-sharing and intelligence-sharing with them 
in that regard. We are restructuring some elements of the 
coalition specifically to focus the capabilities of nations on 
the issue of the movement and the dealing of foreign fighters 
through transit states, of which the Turks are going to play an 
important role in that process within the coalition.
    So do foreign fighters cross Turkey and get into Syria? 
Yes, they do. Are the Turks permitting them to do that? I do 
not believe so, and I think that the Turks are working hard 
ultimately to take the measures necessary to staunch that flow 
as much as they can.
    Senator Menendez. One final question on Iran. Iran is in 
the midst of Iraq. It is in the midst of Syria. Do we share 
mutual goals with Iran?
    General Allen. Well, I would say that our goals with 
respect to Iraq is that we return Iraq to the sovereign control 
of the Iraqi people and to the central government in Baghdad.
    Senator Menendez. Do you think the Iranians share that 
view?
    General Allen. Oh, I believe so. I believe the Iranians 
would believe that their interests--would consider that their 
interests are best served by an Iraq----
    Senator Menendez. Because they have very significant 
influence in Iraq.
    General Allen. Well, they have regional interests, and 
those interests are, in fact, in Iraq. That is not something 
that should surprise us or necessarily alarm us.
    Senator Menendez. I am looking beyond, so if we think an 
accommodation to fight ISIL is good, the aftermath of that in 
Iraq, in Syria, in Yemen, and elsewhere, in my view, is not so 
good. And so, sometimes we look at the short game versus the 
long one, and I am concerned about what the long one is.
    General Allen. Well, Senator, I would not propose that we 
are accommodating Iran in Iraq at this particular moment. We 
are undertaking the measures that we taking in Iraq with the 
Iraqis. We are not cooperating with the Iranians. But as you 
have pointed out and as your question presupposes, the Iranians 
have an interest in a stable Iraq, just as we in the region 
have an interest in a stable Iraq. But that does not mean we 
are accommodating the Iranians by virtue of the actions that we 
are taking in Iraq.
    Senator Menendez. Thank you.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. General Allen, 
thank you for your service. I did not envy your task. In your 
testimony you say that ISIS has lost half of its Iraq-based 
leadership. How do we know that?
    General Allen. I am sorry. Say again your question again, 
sir?
    Senator Johnson. You said that ISIS has lost half of its 
Iraq-based leadership. How do we know that? Do we have pretty 
good intelligence for that?
    General Allen. We actually do have pretty good intelligence 
on this matter, and in the process of tracking the elements 
within the senior echelons of ISIL's leadership, we have been 
tracking and systematically, as we are able to find them, 
dealing with them.
    Senator Johnson. You also said that in the last 6 months we 
have amply demonstrated that ISIS is ``little more than a 
criminal gang and death cult, which now finds itself under 
increasing pressure, sending naive and gullible recruits to die 
by the hundreds.'' What is your evaluation of the accretion 
versus degradation ratio? How many people are coming into the 
battle, actually being drawn and recruited by what they see in 
ISIS versus the number of people who really are dying?
    General Allen. Well, I think that is a difficult number 
to----
    Senator Johnson. Is it positive or negative? Are more 
people joining the fight versus what we are able to degrade?
    General Allen. Well, I would say two things. The numbers 
are up, and the numbers are up because we are now tracking the 
numbers in ways we have not before. I think the numbers are 
also up because of the so-called caliphate, and that has 
created in some respects a magnetism for those elements that 
want to be part of this, that want to support this emergence 
within their own sense of their faith. And so, that has created 
a recruiting opportunity for ISIL that they had not had before.
    So we are going to continue to track those numbers. It is 
not just a matter of dealing with those numbers in the battle 
space. We are dealing with those numbers by virtue of taking 
other measures. As my testimony indicated, we operate along 
five lines of effort. The military line is only one of them. 
Another line where I think we will be seeing more traction be 
realized as time goes on will be the consortium of nations that 
are taking the necessary steps to make it difficult to be 
recruited in a country, to transit out of that country, and 
ultimately get to the battle space.
    Plus as ISIL's so-called caliphate, as it continues to 
receive blow after blow and ultimately be proven as not being 
inevitable or invincible, using that as an opportunity to truly 
message what this organization is to decrease its 
attractiveness to those who might otherwise be attracted and 
seek to move to the battle space ultimately to support them. It 
will take all those measures in concert, sir.
    Senator Johnson. So that kind of leads me to my next 
question. Defeat sounds good, but can you describe what defeat 
looks like?
    General Allen. Is that this organization has been rendered 
ineffective in its capability of being an existential threat to 
Iraq. We are not going to eradicate or annihilate ISIL. Most of 
these organizations that we have dealt with before, there will 
be some residue of that organization for a long period of time 
to come. But we do not want it to have operational capabilities 
that create the opportunity for it to threaten the existence of 
Iraq or other states in the region.
    We want to diminish its capacity to generate funding, which 
limits dramatically its operational decision making and 
capabilities to affect discretion with respect to its 
recruiting and its battlefield capabilities. We want to compete 
with it and ultimately overcome or defeat its message in the 
information sphere where it has achieved a significant 
capability and recruiting prowess.
    So across the many different measures of our lines of 
effort, we have a sense of what we want to do in the physical 
sphere, how we want to deal with them in the financial sphere, 
and ultimately how we want to deal with them in the information 
sphere. And all of those together will constitute the defeat of 
ISIL.
    Senator Johnson. You mentioned the establishment of the 
caliphate. The article in The Atlantic really kind of laid out 
that that is a draw. That is a pull. That establishes certain 
benchmarks, a certain motivation for people being recruited. It 
relies on territorial gains or a hold onto territory. Is that 
part of defeat, to deny them all territory?
    General Allen. Absolutely.
    Senator Johnson. To destroy them so that the caliphate no 
longer exists? So we are talking about pretty much decimation, 
correct? That is what Secretary Kerry--that was the word he 
used, ``decimate.'' You know, a few people scattered maybe 
around the world--kind of like after Nazi Germany--but pretty 
well decimated. That is not exactly what I am hearing out of 
you.
    General Allen. Well, we can apply whatever term you would 
like to. ``Decimation'' is clearly one of the terms that we 
might apply to it. We want them to have no operational 
capability in the end, and that means breaking them into small 
organizations that do not have the capacity as it begins to 
attempt to mass to be a threat.
    Senator Johnson. Define a ``small organization.'' Again, I 
am just trying to get some sense of what we mean by defeat. It 
sounds great, to deny them operational capabilities. Are we 
talking about taking 30,000 down to 500? Are we taking 30,000 
down to 10,000 broken up into 10 different groups?
    General Allen. It will take time. It will take time that 
will ultimately be realized in a number of ways. It will be by 
breaking up the organization through kinetic and military 
surface terrestrial means. It will take time to reduce the 
message and the attractiveness that gives it the capacity to 
regenerate its forces. It will take time ultimately to deny it 
access to the international financial system that gives it the 
capabilities of restoring itself or generating capabilities.
    All of those things together, if we deny them that access, 
if we can defeat their messaging in the information sphere, and 
we can break them up into small groups that cannot mass to be 
operationally significant, then that is defeat.
    Senator Johnson. And I am out of time. Thank you, General.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. And, General 
Allen, thank you very much for your continued service to our 
country. We appreciate that very much. These are extremely 
challenging times, and we are very proud of your leadership.
    General Allen. Thank you, sir.
    Senator Cardin. You are urging us to be patient, that this 
is going to take some time in order to achieve our mission of 
not only degrading, but destroying and defeating ISIL. You 
believe, as I understand, that the authorizations previously 
passed by Congress give the administration the authorization 
necessary for use of force. But I also understand you support 
the President's request to Congress?
    General Allen. I do. I do, sir.
    Senator Cardin. And, of course, the President's request to 
Congress is pretty specific on ISIL and expires in 3 years. It 
is clear that there may well be a need for a continued military 
U.S. presence beyond that 3 years.
    General Allen. I would say probably a need for military 
activity, U.S. activity in some form or another, yes, sir.
    Senator Cardin. And I think that is an honest assessment.
    General Allen. Sure.
    Senator Cardin. And if I understand the reasoning behind 
their request is that the current administration recognizes it 
will be up to the next administration to come back to Congress 
to get the next Congress and the administration together on the 
continued commitment to fight terrorists and what use of force 
will be necessary.
    General Allen. I cannot answer that precisely, but it would 
seem that is a logical reason for that.
    Senator Cardin. So my point is, why does that not also 
apply to 2001 authorization of force? Here we are talking about 
a threat that was identified last year that we are currently 
combating, recognizing that the campaign or use of force may 
well go beyond 3 years. But it is the prerogative of the next 
Congress and administration to define the authorizations that 
are needed.
    The 2001 authorization, which was passed against a known 
threat against the United States in Afghanistan, now is still 
being used to a threat such as ISIL. Would the same logic not 
apply that Congress should define the 2001 authorization 
contemporary with the current needs to go after al-Qaeda?
    General Allen. I have traveled to many of the capitals of 
this coalition, and one of the things that has been clear to me 
as I have traveled to these capitals has been the really 
substantial gratitude of the coalition for American leadership 
and the willingness for America to act. And in so many ways, 
these nations of the coalition see ISIL in a very different way 
than they ever saw al-Qaeda.
    So they are grateful for our leadership. They are grateful 
for our willingness to act. And I believe that this AUMF, which 
is specifically tailored to ISIL, with the very strong support 
of the Congress, gives not just the President the options that 
are necessarily ultimately to deal with this new and unique 
threat, but it also reinforces the image of American leadership 
that is, I think, so deeply wanted by our partners, and so 
deeply needed by this country and ultimately by the coalition 
to deal with ISIL the way we want to.
    Senator Cardin. And I understand that, and it is limited to 
3 years.
    General Allen. That is right.
    Senator Cardin. Would you agree that our success in Iraq in 
dealing with ISIL very much depends upon the Sunni tribes 
taking a leadership role in stopping the advancement of ISIL, 
that it is difficult for the Shiites, it is difficult for 
Western forces to be able to get the type of confidence in the 
community to withstand the recruitments of ISIL?
    General Allen. I would put it slightly differently. I would 
absolutely agree with you, but I think it takes decisive Sunni 
leadership as well within Iraq, and that leadership is coming 
together. But the tribes will be essential to the outcome, and 
your question is correct, sir.
    Senator Cardin. And what is your confidence in the 
Government of Iraq and Baghdad and its ability to work with the 
Sunni tribal leaders to give them that type confidence that 
their centralized government represents their interests and 
protects their interests?
    General Allen. Sure. It is a hard sell, Senator, because 
previously we asked the Sunni tribes to trust the central 
government in Baghdad under Malaki. It did not work out too 
well for them frankly. But I have met with many of the Sheikhs 
of the tribes of Al-Anbar and some other of the areas of Iraq. 
And I have been please, frankly, very pleased at their 
willingness to accept the leadership of Prime Minister Abadi, 
and their willingness to accept the leadership of the Minister 
of Defense and the Minister of Interior in helping them 
ultimately to be one of the principal mechanisms by which we 
will defeat Daesh in that country.
    And that has been a very encouraging sign for me, frankly, 
to see them not just as a group of tribes, but also as leaders 
of the tribes, be public and forthcoming in their willingness 
to support the central government in Iraq and, in particular, 
Prime Minister Abadi.
    Senator Cardin. Thank you, General. I really do appreciate 
all your service.
    General Allen. Yes, sir. Thank you, sir.
    The Chairman. Thank you, sir.
    Senator Paul.
    Senator Paul. General Allen, thanks for your testimony. 
What percentage would you say is an estimate of how many of the 
officials in Iraqi are Sunni versus Shia?
    General Allen. I will have to take the question, sir, and 
get back to you. Right now, the standing army, the 
preponderance is the majority is Shia, but I cannot give you 
the numbers. I will take the question----
    Senator Paul. The reason I ask is because it is sort of on 
the heels of what Senator Cardin is asking. Global Security 
reports basically somewhere between 80 to 90 percent of the 
official Iraqi Army being Shia. I think to have an enduring 
victory, there is some question from some of us whether or not 
you can have an enduring victory and occupy Mosul and be seen 
as a legitimate government if you have got an 80- to 90-percent 
Shia force. So I think that still is a significant political 
problem and a significant military problem as well.
    Of the chieftains that fought in the surge, just an 
estimate, what percentage are engaged on our side now fighting 
against ISIS, and what percentage are on the sidelines, and 
what percentage indifferent?
    General Allen. Again, those are numbers that are difficult 
to give you with any precision. The ones that I fought 
alongside in 2007 and 2008, the ones that I have spoken to, 
without exception have indicated their desire to fight Daesh to 
recover their lands, to ultimately return, in this case, Al-
Anbar, to the tribes and ultimately to Iraq. And so, they have 
been very forthcoming in their desire to do that, every one 
that I have spoken to.
    Senator Paul. And the chieftains are no longer in the area? 
They have been driven out of the area, the ones that you have 
spoken----
    General Allen. Well, many of them are. Some have, at great 
risk, traveled out of the area ultimately to speak with us. But 
they are, and many of them are in Amman and they are in other 
places.
    Senator Paul. With regard to arming the Kurds, there were 
reports a month or two ago that Germany wanted to send arms 
directly to them, but there were objections by our government 
saying everything had to go through Baghdad. Are arms from our 
allies forced to go through Baghdad to get to the Kurds?
    General Allen. I will take the question, but let me offer 
this. Baghdad has not disapproved requests that the Kurds have 
made for weapons. We have attempted to work with Baghdad to 
streamline to the maximum extent possible to reduce any delays 
that may inhibit or impair the expeditious delivery of arms and 
equipment to the Kurds.
    Senator Paul. Do you think this includes sufficient 
technology and long-range weaponry to meet their needs and 
their requests?
    General Allen. Well, all of that is coming. As you know, 
sir, and, again through the support of the Congress, we are 
training and equipping 12 Iraqi brigades, three of which are 
peshmerga brigades, and those peshmerga brigades will be armed 
and equipped with exactly the same sophisticated weapons that 
the other nine Iraqi brigades will receive.
    Senator Paul. We are destroying or abandoning equipment in 
Afghanistan. Is there any possibility that any of that could be 
transported to the Kurds?
    General Allen. That is a question we should pose to the 
Department of Defense, but I will take the question.
    Senator Paul. Thank you. With regard to ultimate victory 
with regard to trying to get Turkey involved, do you think 
there is any possibility of an agreement between the Turks and 
the Kurds, particularly the Turkish Kurds, to accept an 
agreement where there would be a Kurdish homeland not in 
Turkish territory that would encourage Turkey then to 
participate more heavily? And is anybody in the State 
Department trying to come to an accommodation between the Turks 
and the Kurds?
    General Allen. Not to my knowledge.
    Senator Paul. Take that message to them, too, please. Thank 
you.
    General Allen. Senator, if I may, on the one comment you 
made with respect to the Shia and the Shia composition of the 
Iraqi Security Forces. The actions that will be taken in these 
towns are going to be more than simply those of the clearing 
force. What is going to be very important to recognize as well 
is there will be follow-on echelons behind the clearing force, 
which will be important as well. And we are working closely 
with the Iraqis for the hold force, which will be hopefully the 
Sunni police, which will actually secure and provide support to 
the Iraqi population that will have just been liberated.
    The governance element, which will be familiar to those 
Sunni elements that will have been liberated, and, very 
importantly, to have the Sunnis involved in what may be the 
most important aspect of the clearance of Daesh out of those 
areas, which is the immediate humanitarian assistance necessary 
to provide for the relief and the recovery of the populations.
    So it is more complex than simply the clearing force. And 
while we may have to accept that there is a large presence of 
the Shia elements within the Iraqi military, I know that there 
is a very strong effort underway to ensure that the Sunnis are 
deeply engaged elsewhere in all the other aspects of the 
recovery of the population.
    Senator Paul. And one just quick followup to that. I think 
you might get more indigenous support from the Sunni people if 
you are leafleting the place as you are invading saying it is 
an invading Sunni force led by Sunni generals, and that were 
announced. I think our problem really was Mosul was being 
occupied by a Shiite force, and they did not stay long. Once 
push came to shove, they were pretty much gone. Thanks.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much. Thank 
you, General, so much for your service.
    In the authorization for the use of military force text 
that the administration provided to this committee, it said 
that it would prohibit enduring ground forces. And this was 
meant to convey that large numbers of troops would not be on 
the ground for a long time, whatever that means. I voted for 
the 2001 resolution, and I am reminded that the U.S. combat 
operations in Afghanistan were dubbed ``Operation Enduring 
Freedom.''
    We are now past 13 years in that enduring fight, and that 
resolution, of course, was also the basis for the justification 
of our actions in Somalia, in Yemen. And the administration is 
saying quite clearly that they oppose the repeal of that, and 
that the operations that are going on right now, in fact, are 
consistent with that 2001 resolution.
    Now, that causes great problems to me and, I think, to many 
members of the committee because even in the absence of the 
passage of a new AUMF, the administration is maintaining that 
they have the authority to continue as they have for 13 years 
under Operation Enduring Freedom. And so, that obviously is a 
problem for us because that sits there as an underlying 
authority for the next President, Democrat or Republican, who 
is sworn in on January 20, 2017. And most of us will be sitting 
here then as your successor is sitting here, and perhaps not 
with the same interpretation of the word ``enduring.''
    So my questions then go to, is this going to open up a 
potential foreign open-ended war in the Middle East? Will it 
allow for unfettered deployment of ground troops? And 
ultimately, whether or not we are opening up Pandora's Box, 
especially in Syria. So my first question to you goes to 
President Assad and what the goal will be underneath this 
authorization in terms of the removal of President Assad, which 
has been historically an objective that the United States has 
said is important.
    So could you tell us what President Assad and his removal 
represents as one of the goals that exists in training 5,000 
troops in Syria for the next 3 years in a row as the long-term 
objective after the defeat of al-Nusra and ISIS?
    General Allen. Well, our political goal, our policy goal 
ultimately is that the process of change, of Assad's departure 
should occur through a political process, and that ultimately 
he should depart and should not be part of the future political 
landscape in Syria. The role of the T&E program is to, first 
and foremost, to give those elements of the moderate Syrian 
opposition that we are supporting the capacity to defend 
themselves, to build battlefield credibility, and ultimately to 
use those elements, those forces, to deal with Daesh in the 
context of our strategy to deal with Daesh.
    At the same time that we are building that capacity in the 
moderate Syrian opposition, our hope would be building within 
the political echelon of the moderate Syrian opposition a level 
of coherence and sophistication that the two together--the 
moderate Syrian political echelon and the military echelon--are 
the credible force that will have a place at the table during 
that political process, which will ultimately see the 
replacement of Assad.
    Senator Markey. I appreciate that, but it just seems to me 
that that is a 10-year proposition, and if that is the case we 
should be talking about a 10-year period. We can finish Iraq 
perhaps over the next 3 years, but then in Syria it is a much 
longer process. And we should just understand what the long-
term goal requires from us inside of Syria. And just saying 
Assad's name over and over again I think will just help us to 
focus on the ultimate objective that the Free Syrian Army is 
going to have in that country, and then what we are signing up 
for in terms of the long-term military effort inside of that 
country.
    And I thank you, Mr. Chairman, for the opportunity to ask 
this one final question, which is, the basic tension that King 
Abdullah was talking about, which is that of the Americans 
providing help to fight the war, but not claiming credit so it 
does not look like a crusade inside of that region. Can you 
talk about that so that the people in the region do not view 
this as a U.S.-led coalition against ISIL, because ultimately 
that then comes back to haunt us. And that was the message that 
we are receiving from all the Middle East.
    General Allen. Well, I think, Senator, as your question 
presupposes, King Abdullah of Jordan has been very clear 
throughout the period of this coalition that in the end the 
solution to the problems of the region must not only look like, 
but must be a function of those states within the region to 
take concerted action supported by the United States and 
supported by a broader global coalition for those concerted 
actions to be successful.
    It is very important obviously that the solution have an 
Arab face and a Muslim voice with respect to dealing with the 
so-called caliphate and all that it has brought to the region. 
And the king and other Muslim and Arab leaders in the region 
have been very clear on the desire that they not just appear, 
but really are exercising leadership frontally in this process.
    Senator Markey. I do not think people in that region view 
it that way right now. I think that has to be our goal, though. 
We just have to switch it so that it is not us, and I think 
Senator Paul is referring to that, that it has to be an 
indigenous Muslim-led effort, and I do not think that is the 
internal view.
    Thank you.
    The Chairman. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. General Allen, 
thank you for your service to the country. I have followed you 
on TV closely the last couple of months, and I think you have 
done a great job.
    General Allen. Thank you, sir.
    Senator Isakson. Am I correct, we are operating currently 
in the Middle East under the 2001 AUMF? Is that correct?
    General Allen. Yes, sir. That is correct.
    Senator Isakson. Would it be a fair statement to say the 
one the President has sent to us to consider is actually a 
limiting AUMF compared to the 2001 authorization?
    General Allen. It is specifically intended to deal with the 
threat of ISIL. That is correct.
    Senator Isakson. But it is limiting in the authority the 
President would have primarily by the interpretation of the 
``enduring'' phrase. Is that correct?
    General Allen. ``Enduring'' and the expectation, as he has 
described it in the proposed legislation, on the size and the 
kinds of forces that might be applied, measures that be 
applied. That is correct.
    Senator Isakson. Like Senator Markey, I voted for the 2001 
authorization when I was here. It came on the heels of 9/11/
2001. It was passed at a time when Americans had American flags 
on their windshields and their front doors, and American 
businesses had flags raised. And the patriotism in our country, 
because of the terrible attack against our country, was at an 
all-time high, at least in my lifetime, in my memory. Are we 
going to have to wait for that type of event again to happen to 
us before we use whatever it takes to destroy this evil, 
meaning ISIL and those like them?
    General Allen. I think we are taking those measures now to 
get after the evil that is ISIL, and it is an evil we have not 
seen before in a very long time. Just today the FBI rolled up 
three individuals in this country that were intent of either 
joining or doing--joining ISIL in the battle space or doing ill 
to the American people. And as long as we are the front edge of 
this and taking those kinds of measures, I think we have the 
possibility of keeping it from becoming something that could 
like a 9/11.
    Senator Isakson. In your printed statement, and I assume it 
is part of your remarks that you said verbally, you said, ``It 
will ultimately be the aggregate pressure of the coalition's 
activity over multiple mutual supporting lines of effort that 
will determine the campaign's success.''
    General Allen. That is correct, sir.
    Senator Isakson. What are those mutually supporting lines 
that you are referring to?
    General Allen. First, working very closely within the 
coalition and more broadly in the community of nations to limit 
the flow of foreign fighters; to deal with the measures--to 
take the measures necessary to deal with the ability to limit 
ISIL's capacity to generate revenue, ultimately to support its 
operations, and to give it discretion to take action against us 
or potentially our allies; to provide support to those elements 
of the population in the region that have been displaced by 
virtue of the activities of ISIL or have been directly 
suppressed by the boot of ISIL's conquests and subjugation; and 
then, very importantly, to work together in the information 
space ultimately to defeat the idea of Daesh.
    And the coalition is working very hard in those areas. I 
have just come back from Southeast Asia where I met with the 
leadership of several countries there. They are watching with 
great interest and concern those things that are--that are 
occurring in the Middle East which could spread into their 
region. And they are interested in joining us in ways that can 
limit the ability of those organizations there to travel to the 
battle space or to limit their ability to directly challenge 
the authorities of those countries. So it is not just the 
countries of the Middle East. It is not just the countries of 
Europe. It is the countries of Southeast Asia.
    And very importantly within the context of the multiple 
lines of effort, working very closely to outreach to the 
indigenous populations of these countries in ways that can 
dispel the image of this so-called caliphate in ways that we 
can work with religious leaders and tribal leaders in those 
countries with populations that may be at risk. Work with 
teachers, and clerics, and families to reduce the 
attractiveness of Daesh and this kind of an extremist message.
    And the combination of all those activities together we 
think will pressure and ultimately put the kinds of pressure 
necessary on Daesh, first, to defend ourselves, and ultimately 
to defeat the organization.
    Senator Isakson. On that point and very briefly because my 
time will be up in about 45 seconds.
    General Allen. Yes, sir.
    Senator Isakson. Are we doing enough to counteract the use 
of social media and technology to communicate exactly what you 
are talking about that they are doing, because what you heard 
about in Southeast Asia and what I have heard from on some 
trips I have taken is the fear they will use social media and 
the modern communication mechanisms that we have today to 
spread their ideology and their fear around the world. Are we 
attacking that as much as we should?
    General Allen. They are doing it now, and it is, in fact, 
an explicit objective within our efforts within the counter 
messaging line of effort among the many nations involved to do 
just that. Obviously in nations where free speech is an issue, 
we have to accommodate that aspect of our relationship with 
industry that own these platforms to ensure that we are either 
able to interdict that message or with industry to remove that 
message within its own content. So we are working very closely 
actually with industry and with our partners to counter that 
message across all the social media.
    Senator Isakson. Thank you for your time and your service.
    General Allen. Thank you, sir.
    The Chairman. Thank you.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman, Ranking 
Member Menendez. General, thank you so much for your dedication 
to this nation. I want to thank the President for the wisdom he 
showed in appointing you as the special envoy. I find your 
presentation to be very direct, no frills, just 
straightforward, and I appreciate it.
    Under Article 1, Section 8, Congress has the power to 
declare war. I know you agree with that, yes?
    General Allen. Yes, ma'am.
    Senator Boxer. All right. So I hope you could then 
understand why we want to be very precise when we do that 
because we are sent here by a lot of people who have a lot of 
kids who serve in the military, and they are the fabric of our 
community, so we want to be careful. And I just want to say--I 
am not even going to ask you to expand on this ``enduring'' 
word because you have said it very clearly. Your definition of 
no enduring presence could mean a 2-week presence of combat 
boots on the ground, American boots on the ground, or a 2-year 
presence of American combat boots on the ground.
    And that answers the question the Democrats on this 
committee have been searching for--this definition--and I think 
what you have proven with your honesty here is there is no 
definition because it is in the eye of the beholder. When you 
say to me that if I vote for this there will be no enduring 
combat presence, and I am sending kids in my State there for 2 
years, I would argue you have misinterpreted it. The 
Congressional Research Service says there is really no 
definition. And if I wanted to take an administration to court 
because as a Member of Congress, I said no enduring presence, 
CRS says I would not have a legal leg to stand on because there 
is no definition.
    So I just think it is very important the administration 
hear this once again. I mean, I know poor Secretary Kerry had 
to hear it over and over again from our side yesterday, but we 
are very uncomfortable with this language. And when Senator 
Menendez was chairman, he cobbled together a really good AUMF 
that united all of us on our side because he essentially said 
no combat troops with these exceptions, and he put in the kind 
of exceptions I think you would agree with: special forces 
operations, search and rescue, protecting personnel. And we 
would urge you to please go back and take a look at it. I just 
feel very strongly.
    Now, I want to ask you questions that have nothing to do 
with that because I think you and I would probably disagree on 
that subject. There is no point in going over it again. But I 
am very concerned about U.S. military support for the Kurds, 
and you answered the question in a very sure way, which is 
wonderful. You said, oh, no problem. However, the Kurds are not 
saying that.
    So I want to call to your attention a recent interview with 
Bloomberg View just 3 weeks ago. The head of the Kurdistan 
Regional Security Council expressed concerns about our 
commitment to the Kurds, and these are our boots on the ground. 
These are our boots on the ground. He said, ``We are starting 
to have doubts that there might be a political decision on what 
sort of equipment should be given to the Kurds . . . We are 
fighting on behalf of the rest of the world against this 
terrorist organization. We are putting our lives on the line. 
All we ask for is the sufficient equipment to protect these 
lives.''
    So I need you to respond to that. Is that off base? What do 
you think about that? Do you take that comment seriously? Does 
it concern you?
    General Allen. Well, I listen very carefully to what the 
Kurds have to say, and they have, in so many ways, demonstrated 
battlefield excellence and courage that should elicit all of 
our respect. But we have worked very carefully and very closely 
with the Kurds, and your question presupposes, and is correct, 
that American support to the Kurds has given them the capacity, 
and more broadly and more recently, coalition support to the 
Kurds has given them the ability to do much of what they have 
been able to accomplish: the recovery of Mosul Dam, the seizure 
of Kisik Junction, the successful defense of Guerra. The many 
things that they have done is because the coalition has been in 
close support with them.
    At the same time, in several different rounds we have 
worked very hard with coalition members to respond to Kurdish 
requests for equipment, and that equipment has been flowing in. 
Also, in the context of the $1.6 billion that was appropriated 
for the train and equip program for the 12 Iraqi army brigades, 
three of which are peshmerga, they are getting exactly the same 
sophisticated equipment that the Kurds or the Iraqis are 
getting.
    Senator Boxer. My question was not about how good they are. 
We agree. They are saying they do not feel they have enough 
equipment. And I am just saying that while you are saying 
everything is rosy, they are complaining about it. And I just 
want to say--as one Senator, I cannot speak for anyone else--
they are our boots on the ground, and we need to get them what 
they need. I know there is pressure from certain factions, but 
if they are going to be our boots on the ground, we have got to 
give them what they need. Thank you.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you. First of all, General, thank you 
for your service to our country and for your willingness to 
come back in and help with this new endeavor of great 
difficulty.
    I want to start out by just--I know we are not debating the 
authorization for use of force, but I do want to ask you 
because of your experience in these affairs in the past, it is 
my understanding from our review of the process that only two 
times in our history has Congress authorized the use of force 
with limitations, and both were United Nations peacekeeping 
missions. And so, the question that I would have now is, if our 
objective here is the defeat of ISIS, would it not be more 
prudent to authorize the Commander in Chief to move forward in 
that regard and allow him as Commander in Chief and any future 
Commander in Chief, whoever they may be, to decide what the 
appropriate strategy is moving forward to ultimately defeat 
them if that is the ultimate goal? What would be wrong with 
simply authorizing the President to defeat them?
    General Allen. Well, the strategy that the President has 
approved, in fact, does envision the defeat of Daesh.
    Senator Rubio. No, I understand the strategy does. Just for 
purposes of an authorization from Congress, and I understand 
you have endorsed here today what the President wants to do, 
and I understand that perhaps that is what the President thinks 
he can get passed. But from a military point of view, would it 
not be more appropriate to simply authorize the President to do 
whatever it takes to defeat them?
    General Allen. The President needs the options that he--
that should be available to him ultimately to defeat Daesh.
    Senator Rubio. Okay. My second question is, is it possible 
to defeat ISIS without them ultimately being defeated by 
someone on the ground? Someone is going to have to confront 
them eventually on the ground and defeat them there. If you can 
update us on efforts, and I have seen in the past some 
conversation among some of the regional countries, about the 
potential for a coalition of armed forces brought together--the 
Egyptians, the Turks, the Saudis, perhaps some of the kingdoms, 
Jordan, et cetera--who could provide a coalition of local 
forces who could play that role with significant U.S. 
assistance from the air, logistics, intelligence, et cetera. 
Has there been any progress made in that? Is that something 
that is actively being discussed with those nations?
    General Allen. Senator Rubio, I would really prefer to have 
this particular part of the conversation in a closed session.
    Senator Rubio. Okay, I understand. So let me move on then 
to a separate topic, and that is the nature of this conflict. 
ISIS has already proven that they are going to move into--for a 
group to take root, and take hold, and actually be able to 
grow, they need ungoverned vacuum spaces that they can operate 
from. That is what perhaps has attracted them, for example, to 
Libya, not just the access to a port town, but the ability to 
operate uncontested in terms of another government, et cetera.
    It is important to understand that as this conflict 
continues, the possibility continues to grow that ISIS, in 
addition to being based in Syria and Iraq, will also look to 
other places where they can set up nodes operation. Libya is an 
example, but potentially training camps in Afghanistan. Any 
place where a vacuum opens up is an attractive and appealing 
place for them to move operations.
    And, therefore, as we put forth our strategy and as the 
Congress deliberates the authority it gives the President, that 
reality needs to be taken into account, correct?
    General Allen. I agree, yes, sir.
    Senator Rubio. Okay. My last question is about the nature 
of this conflict. You know, it has been talked about in the 
past that ISIS is some sort of, and they certainly are, a group 
of monsters that take on these acts of extreme violence, but 
these are not just random acts of extreme violence. This is a 
group who has a--their barbarism has a purpose. At the end of 
the day it is to purify, in their mind, that region to their 
form of Islam at the exclusion not just of non-Sunni Islam, but 
especially of non-Islamic populations.
    And in that realm, it is clear that the Christians and 
Yazidis, but recently we have seen Christians in particular, 
are in increased danger in this region, and they specifically 
target Christian populations for barbarity, both as a way to 
shock the world, but also as an effort to carry out their 
ultimate goal of, in their mind, ``purifying the region for 
Islam.'' Is there a not deep religious component to ISIS' 
strategy here? They are clearly as part of their effort trying 
to, again, using a term they would use, not one that I 
necessarily enjoy using, but ``cleanse the region'' of infidels 
and non-believers. And in that realm they have specifically 
targeted Christians for these sorts of atrocities that they are 
committing on now an ongoing basis as we saw yesterday again.
    General Allen. I would say yes to that. The interpretation 
that they apply to all of those segments of the population that 
live within the area that they control has permitted them to do 
the things that they have done to certain elements of the 
population. So I absolutely agree with you. Their 
interpretation of their responsibility under this so-called 
caliphate is to take action against certain elements of the 
population and treat them one way, and certain elements of the 
population and treat them another way. It is based on their 
historic interpretation.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and thank you, 
General Allen, for your service. I also want to thank you. You 
did very significant and important work with respect to trying 
to provide a security roadmap for the West Bank in the event of 
a peace deal between Israeli and Palestinian leaders. Whether 
the leaders will do what their citizens want them to do and 
find such a deal is up to them. But it should not go unnoticed 
that you worked very, very hard on that, and you have put in 
place a template for security on the West Bank that is a very 
good thing in your work then, and in this context, really in 
the best traditions of American diplomacy. And I want to thank 
you for that.
    General Allen. Thank you, sir.
    Senator Kaine. I want to make a comment about ends in the 
next two questions about means. I will pick up--Senator Johnson 
was quizzing you about what is defeat of ISIL. They are not a 
state. They say they are a state. They are not. They are not 
Islamic. They say they are. They are not. They are a mutation 
of Islam. And you even talk about defeating the idea of ISIL. I 
agree with you. They are just sort of an ideologically driven 
death cult.
    And so, as we grapple with the authorization, we really 
have to kind of grapple with this question of what does defeat 
look like. I am very practical about this. I want to protect 
Americans from ISIL. That is what I want to do. I want to 
protect Americans from ISIL, and I want to protect our allies 
who ask for our help. The defeat of the ideology, the death 
cult, you know, fantasy that they had, we could be chasing 
after a phantom by trying to do that. But I want to protect 
Americans, and I want to defend our allies who ask us for that.
    On the means side, a question about the ground troops 
issues. In the last three weeks, we have had meetings with two 
leaders from the region, King Abdullah and today the emir of 
Qatar. King Abdullah said this is our fight, not yours, and 
basically suggested that U.S. ground troops would not be a good 
idea. The emir of Qatar was actually even more straightforward 
about that today. He said I do not want American ground troops 
in. He actually--we did not suggest this to him. He brought up 
the notion that American ground troops may be a recruiting 
bonanza for ISIL, may change the notion of what the fight is. 
It is against the West, now we can really recruit people.
    General Allen. I think that is accurate.
    Senator Kaine. And so, this is--you know, the ground troop 
thing is a wordsmithing issue, but the wordsmithing is 
subsidiary to the bigger issue, which is, you know, do we 
become an occupier? Do we become a recruiting tool for ISIL? 
King Abdullah's notion, you know. This terrorism is born and 
bred in the region. The United States did not create it. The 
region has got to stand up against it. If the region is not 
willing to stand up against it, there is virtually nothing that 
the United States can do, no matter how many resources we put 
into it, that will ultimately lead to a success. We cannot 
police the region that will not police itself.
    So I am kind of interested--forget about the wordsmithing. 
But when the leaders from the region say American ground troops 
are a bad idea, that is pretty--that is a powerful thought to 
those of us who are going to be voting on the authorization. 
How would you respond to that notion that the presence of any 
significant American ground troops changes the character of 
this and makes it the West against ISIL rather than a region 
needing to police its own extremism?
    General Allen. Well, I do agree with both the emir and the 
king. The presence, the infusion of a large--and I think this 
where they would be a little more precise if given the 
opportunity. The presence of a large conventional maneuver 
force would change the nature of the conversation. But it is 
really important to understand that during Iraq, and during 
Afghanistan, and in the way we have responded to other similar 
challenges around the world, the United States brings to bear a 
variety of really important capabilities.
    The first is the capacity of our strategic leadership. Just 
our leadership alone has brought to bear 62 nations against 
this challenge. Our leadership brought to bear the first night 
of our strike operations five Arab air forces flying along on 
the wing of the United States Air Force in strikes against ISIL 
targets in Syria. That is not anything that any of us could 
have imagined a year ago. So our strategic leadership counts as 
really an enabler to this process.
    Other ways and means, and your question is really 
important. Other ways and means that we can bring success to 
the Arab solution to this is providing technical support, 
intelligence support; focused special operations strike 
capabilities; the training and equipping that we are doing 
today, some of which can be done in country, some of which can 
be done offshore in partner nations; the aggregation of those 
activities undertaken with partners in the region ultimately to 
achieve the ends that we seek.
    The United States really has and our coalition partners 
really have many means at our disposal from leadership all the 
way through to potential for special operations strike to give 
our Arab partners exactly what they want, which is the capacity 
for them to be the defeat mechanism in the end of Daesh.
    Senator Kaine. Thank you, Mr. Chairman.
    Senator Flake [presiding]. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thank you, 
General Allen, for your service, and your time, and your 
testimony today. And, again, we have to recognize that ISIS is 
a real threat to this country, and it requires a comprehensive 
strategy. And the commitment to their total destruction, I 
think, is the only thing that we can accept.
    I am glad the President has made the effort to forward the 
AUMF to Congress. Obviously I look forward to working with the 
President on the AUMF and this committee. In the letter that 
the President transmitted along with his language in the AUMF, 
he stated ``I have directed a comprehensive and sustained 
strategy to degrade and defeat ISIL. As part of this strategy, 
U.S. military forces are conducting a systematic campaign of 
airstrikes against ISIL in Iraq and Syria.''
    It is my understanding from the testimony that you have 
provided to us today that the United States has conducted about 
2,500 airstrikes. Is that correct?
    General Allen. That is correct, sir.
    Senator Gardner. And that is since Operation Inherent 
Resolve began on August 8. That is the timeframe of the 2,500?
    General Allen. Yes, sir.
    Senator Gardner. Okay. And that is an average of 10 
airstrikes a day. And so, the question I have is, is the pace 
of the operation sufficient to eradicate ISIL at this point?
    General Allen. Well, eradication is not the end state that 
we are seeking at this particular moment. Our hope--``hope'' is 
not the term I want to use. What our expectation is given the 
strategy is that the combination of U.S. and coalition air 
power in conjunction with the training and equipping of Iraqi 
Forces and ultimately Syrian forces will over time give us the 
strategic outcomes that we desire. That is not going to happen 
tomorrow. It is going to happen over a period of time. But the 
combination of all those things together is what we anticipate 
will permit us to achieve the objectives of the strategy.
    Senator Gardner. And so, what besides the airstrikes then 
does the President's comprehensive and sustained strategy 
envision?
    General Allen. Several things. The first is to provide 
support to the stability of the Iraqi Government, which is 
essential, and we are doing that. We are working closely with 
the Iraqi Government with respect to reforms in partnership 
with the Abadi government, which is inclined to see it that 
way. Working closely with the Iraqi Security Forces to prepare 
ultimately for a long-term counter offensive, which will remove 
Daesh from the population centers and ultimately eject it from 
the country.
    We are working as an international coalition on behalf of 
Iraq to pressure Daesh's capacities to generate funds and 
resources necessary for its long-term survival. We are working 
as an international coalition to staunch the flow of foreign 
fighters to the battlefield so that Daesh has difficulty in 
replacing its combat losses. We are going to work very closely 
as partners to share intelligence so that we are working with 
the Iraqis to give them a clear picture of what we understand 
Daesh to be, but also between and among the members of the 
coalition that we can defend ourselves and our homelands from 
the potential for Daesh activities within the United States.
    And then, of course, we are working very closely with our 
partners to provide humanitarian assistance to those elements 
of the population that will need to be recovered and relieved 
as we liberate them from the presence of Daesh in their 
population centers. And then finally, to work together with 
Iraq and our partners to deal what I think is the decisive blow 
here beyond the physical defeat of Daesh, which is the defeat 
of its idea and the idea of its attractiveness over the long 
term.
    Senator Gardner. And the pace of operations which we 
discussed, with the passage of the AUMF, does that change at 
all?
    General Allen. Well, I think the pace of the operation will 
be judged as time goes. You know, commanders take stock of the 
operational environment, and ultimately resource the operations 
that either--takes advantage of opportunities that are availed 
to them by the changes in the operational environment. We could 
well find that based on our current estimates that the 
activities that we will undertake in the counter offensive will 
follow along the pace and the timeline that we anticipate. But 
we could easily find that as the counter offensive unfolds, 
that Daesh is unwilling to receive defeat after defeat at the 
hands of the Iraqi Security Forces, which is exactly what we 
want to see. And they may decide that it is time to pull out.
    So we may see that the operational environment could 
change, and it is the responsibility of our very capable 
commanders, in this case, Lloyd Austin and James Terry, to 
constantly be monitoring the success of the unfolding operation 
to ensure we are getting the most out of the resources that we 
have, and if we need more resources, that we ask for them.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Flake. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. General 
Allen, thank you for your service. Thank you for your answers 
to the questions. I agree with Senator Boxer, they are 
straightforward and very helpful.
    I want to build on some questions from Senator Menendez and 
Senator Boxer on the authorizing language that we have before 
us. A lot of attention has been given to this phrase 
``enduring,'' not as much attention given to the juxtaposition 
that has now been created between what are offensive forces and 
what are defensive forces. Just so I understand this, you have 
talked about what the potential limitation is on size of force 
or duration of force under the enduring limitation. But so long 
as the presence of troops is considered defensive, there is no 
limitation in this authorization of military as to the number 
of troops or the duration of their time in the conflict area so 
long as they are considered defensive forces.
    General Allen. Again, I am not sponsoring the legislation, 
but I think your point is correct in that regard. It is about 
offensive maneuver forces.
    Senator Murphy. I thought your answer to Senator Kaine's 
question was definitive in that you worry, as I know the 
President does, that a large-scale deployment of troops could 
become recruiting fodder for extremists as our presence in Iraq 
did over the 10 years. Do you think that that changes if our 
categorization of the forces are offensive or defensive, if we 
have 100,000 defensive troops? I do not think this President is 
going to authorize this, but this is a 3-year authorization, so 
the next President will get the chance to decide differently.
    Would it matter in terms of the ability for extremists to 
recruit as to whether our troops there were categorized as 
defensive versus offensive?
    General Allen. Again, these are all individual measures. It 
depends on how the crisis has unfolded. It depends on the 
region in which those forces may be involved. It would depend 
on the activities that may have occurred prior to the 
introduction of forces that we might call defensive. It is just 
not possible to give a specific answer to that question. You 
know, I would have a difficult time understanding how we would 
have 100,000 forces in a defensive environment if we had not 
had substantial offensive operations to begin with. And that 
would, of course, change the regional view and the perspective 
on our forces and the outcome.
    So I think that there will be occasions where we may find 
that locations or facilities or concentrations of friends and 
allies need to be defended. The rationale that we would use 
with our regional partners for the insertion of our allied 
troops to defend those locations or those populations would be 
very, very important. And so, I think each region or each of 
those circumstances would have to be judged independently.
    Senator Murphy. And do you have a sense, and I know you are 
not the sponsor of this legislation, but you were there, as to 
what the limits of that word ``defensive'' are? If our forces 
were there taking fire from an ISIL position and needed to 
advance on that position to eliminate it in order to defend our 
troops, I assume that that action in that time and space 
looking like an offensive action would still be considered 
defensive in the sense that it was necessary in order to defend 
our troops or coalition troops?
    General Allen. Well, yes. In that particular example, yes. 
Again, we would probably prior to the deployment of those 
forces have come forward with as clear an explanation as we 
could as to what defensive would look in the context of 
accomplishing that mission and accomplishing those tasks 
associated with defense.
    Senator Murphy. You are going to get stuck with a lot of 
hypothetical questions on these two phrases ``enduring'' and 
``defensive and offensive'' simply because we are stuck with 
them trying to figure them out.
    Just one last question if I could. Part of the success of 
the awakening was not just persuasion, but also the transfer of 
substantial resources to tribes. We, you know, effectively paid 
tribes in various ways in order to compensate them for their 
moving away from insurgencies and towards coalition forces. 
What did we learn from that experience, and how does it educate 
us as we try to move forward a strategy, once again, of trying 
to win over these forces?
    General Allen. That is a really important question. I was 
eye deep in that process.
    Senator Murphy. Yes.
    General Allen. And we did, in fact, provide direct support. 
And we gave that direct support to the tribes in so many ways 
because a central government was incapable of doing it. And 
when we provided that support and ultimately the tribes made 
the strategic decision to side with us against al-Qaeda, as you 
well recall, fundamentally the operation al environment changed 
very quickly in 2007 and 2008.
    I think what we learned from that was not the fundamental 
change in the battle space that favored us. It was the long-
term outcome of the Sons of Iraq, which was the handover of the 
responsibility to resource the Sons of Iraq to the central 
government in Iraq. And that did not work out frankly because 
it was never clear to us, I think, whether Malaki intended to 
support them or not.
    So in this case, and the lesson is being applied today. In 
this case, we seek in every possible way both to encourage and 
to support the central government to build those bridges now 
with the tribal elements by providing support to them, by being 
present in the training process, and ultimately ensuring the 
linkage between the Sheikhs and the Iraqi civilian Sunni 
leaders, that linkage now is effective with the central 
government, not in a handoff later. And that one of the 
important messages or lessons that have come out of this.
    Senator Murphy. And so, does that include financial 
resources being transferred from the Iraqi Government to these 
tribes? Is that one of our recommendations to them?
    General Allen. Yes, in the context, for example, of the 
2015 budget that was just passed by the Iraqis. There was a 
wedge in there for the recruitment of tribal elements and 
indigenous populations from each province into the national 
guard organizations. And those national guard organizations 
will belong to the governor. They will support the police 
locally in the event that there is a crisis, or will be 
nationalized, federalized to support the army in the event of a 
national emergency.
    That entity will belong to the ministry of defense. They 
will recruited into the Ministry of Defense. They will be part 
of the national guard brigade, but they will be paid by 
national funds. So the mechanisms underway right now where we 
are training tribal elements in Al-Anbar, for example, they are 
actually being paid now by the Iraqi Government and armed by 
the Iraqi Government. We are providing the training.
    Senator Murphy. Thank you.
    General Allen. Yes, sir.
    The Chairman [presiding]. Thank you.
    Senator Flake.
    Senator Flake. Thank you. Thank you for your testimony. We 
have got a vote on, so I need to go quickly, so I will ask just 
a couple of questions quickly.
    How important do you think, and I apologize if you answered 
this before I came. How important do you think it is to have 
the AUMF?
    General Allen. It is very important.
    Senator Flake. How important--go ahead.
    General Allen. I think it is extraordinarily important 
actually. The United States has exerted great leadership in 
bringing together these countries ultimately to support the 
restoration of the situation in Iraq, its territorial integrity 
and sovereignty, and ultimately to help to deal with the--to be 
able to defeat that Daesh necessary in Syria. So it is very 
important.
    ISIL is a threat that is unique in our time. It is 
certainly unique in the time that I have been in the service. 
And while the elements of the AUMF will be properly debated 
between this body and the administration, and many of the 
members here today have brought up important points for clarity 
or for continued discussion, I think that it is extraordinarily 
important, the message that it sends that the administration is 
in a conversation and dialogue with this committee and the 
Congress on the issue.
    But most importantly, in support of the U.S. leadership 
globally on this issue, a strong bipartisan vote to support the 
AUMF complements the leadership that the United States has 
exerted in this crisis.
    Senator Flake. Well, thank you. That is certainly the case 
I have made that both our adversaries and our allies need to 
know that we speak with one voice here.
    General Allen. That is exactly right.
    Senator Flake. Is there one that is more important than the 
other in that regard, or is it equally important for both of 
them to hear this message?
    General Allen. Our friends who are in the coalition in the 
21 capitals I have traveled to have been extraordinarily 
grateful for the American leadership on this issue. What I want 
is for our adversaries to not be able to sleep at night because 
we have the unqualified support of the Congress in our actions 
necessary to defeat this enemy.
    Senator Flake. At what point is the impact of this AUMF 
diminished if we have language that is just--I mean, if we try 
to include every point of view and every nuance as opposed to 
something straightforward that we are in this to win. At what 
point does it become less important?
    General Allen. It would be difficult for me to answer, 
Senator, but I would just hope that the consultation between 
the administration and this committee puts the language in 
there that the President needs to defend the American people, 
defend our country, but also to deal the defeat to Daesh that 
it desperately needs.
    Senator Flake. In other examples of AUMF, there has not 
been much change. We have basically done what the 
administration has asked for. And there have been some 
amendments in recent AUMFs, but by and large it has been rather 
straightforward language, rather short. I frankly think the 
language the administration put forward is a good start, and 
maybe amended some. But I would caution the committee and the 
Congress in general, the Senate and the House, from going too 
far to make it all things to everyone, and probably diminish 
the importance of it.
    But anyway, thank you for your service, and thank you for 
your testimony here.
    General Allen. Thank you, sir.
    The Chairman. Thank you, Senator. Senator Kaine I know had 
a followup.
    Senator Kaine. General, I wanted to ask about one of the 
lines of effort that we are working on in a fairly significant 
way, and that is the humanitarian relief line. The United 
States is the most generous nation in the world in terms of 
humanitarian relief to refugees from Syria. But the problem is 
getting worse in some ways because of the closing of borders 
with Lebanon. There were too many refugees there. Jordan, 
probably the same thing. Turkey with border issues is probably 
less willing to just see waves and waves of Syrians coming 
over. And so, what are we doing in tandem with the London 
Eleven and other nations to try to deal with the humanitarian 
crisis of all of these displaced folks in Syria, whether they 
are being displaced because of Bashar al-Assad, ISIL, cholera 
outbreaks, weather, desperate poverty that they are being 
displaced? And I wonder about or humanitarian efforts in tandem 
with other nations.
    General Allen. I will give you a partial answer, sir, and I 
will take the question and give you the ability of the 
Department to come back. We obviously take that very seriously. 
We have the relief efforts that, as you properly point out, 
have been very generously supported by the United States and 
others directly to the populations of Syria and Iraq. We have 
the U.N. appeals, which need a lot more assistance to bring 
those appeals up to 100 percent. We are in the depth of a 
winter right now which has made this more urgent and more 
timely.
    We have the frontline states that are struggling with the 
influx of Syrian refugees--Turkey, Lebanon, and Jordan--so we 
need to work closely with them to give them the kinds of 
support necessary to ensure that these demographic changes that 
they are experiencing in their countries are not in the end 
destabilizing to their stability and their security.
    And then, very importantly, is humanitarian assistance that 
will follow in trace of the counter offensive when that 
ultimately kicks off. It can be argued that the clearing 
operation will be important to remove Daesh out of the 
population centers and the police will secure the population. 
But we are going to find that these people have lived under 
indescribable conditions, and so our ability to marshal and 
quickly apply the humanitarian assistance necessary to the 
female populations, to, more broadly, the liberated 
populations, to the internally displaced persons that will come 
home as we begin to clear these population centers of Daesh, 
supporting their return to their homes, the necessary 
humanitarian assistance to the restoration of the central 
services, electricity, water, and then ultimately 
reconstruction.
    As your question presupposes, this is a huge bill, and it 
is a huge regional undertaking. And so, I think it should be to 
everyone's satisfaction, or at least optimism, many of the 
members of the coalition have been very clear in their 
willingness to support the broader U.N. effort for the region 
and the frontline states. And a number of the other coalition 
members have put their hands in the air to be leaders of and 
supporters to that very important humanitarian effort that will 
follow right closely on the heels of the clearing operation 
that will move Daesh out of Iraq.
    So it is a multifaceted, multilayer, complex issue, but in 
the end the humanitarian piece, I think, is one of the death 
blows that Daesh will experience.
    Senator Kaine. I know in response to a question from the 
chairman, you indicated the complexities of no-fly zones. I 
just would commend the idea of a humanitarian zone inside Syria 
probably on the border with Turkey or the border with Jordan, 
or maybe both, that would be justified by a U.N. Security 
Council resolutions already in place promoting cross-border 
delivery of humanitarian aid. That would be humanitarian zones 
for people who, whether they are fleeing Bashar al-Assad, ISIL, 
cholera, hunger, winter, whatever is, once the borders have 
been closed and they cannot transit across the borders, I hope 
we would contemplate some form of safe haven for the citizens 
who are suffering so badly in what I think most have testified 
is the worst refugee crisis since World War II.
    General Allen. That is correct, sir.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. And that would be in the form of some type of 
no-fly zone----
    Senator Kaine. Because no-fly has the military, you know, 
label right up front, I would call it a humanitarian safe haven 
zone. But definitely I would want such a zone to be protected 
from whoever might try to mess around with people who are 
refugees who are just seeking safety, yes.
    The Chairman. Very good. Well, General, I know you have got 
a hard stop in 20 minutes, and I think we have--you have 
certainly helped us in the way that we wanted you to help us. 
We appreciate your testimony.
    I would have one question, and that is you, in response to 
Senator Flake, talked about the need for Congress to be behind 
the effort that is taking place with ISIL. There have been 
differing discussions about the length of time from an AUMF 
standpoint. And is there anything about the timeframe--I know 
the President has asked for three--whether it is longer, 
shorter? Is there anything about that that you think matters at 
all relative to those that you are talking about appealing to 
our enemies and allies together?
    General Allen. Well, our intent with respect to Daesh is to 
end its abilities, to deal that defeat to them as quickly as we 
can. If it takes longer than three years, my suspicion would be 
that we would come back to this committee and request an 
extension.
    The Chairman. And if it was shorter than that, it would 
trouble you either.
    General Allen. If it was shorter than that, it would not 
trouble me at all if Daesh were defeated in less than 3 years.
    The Chairman. No, no, no, it would not trouble us either. 
Thank you. Does the length of time really particularly matter 
to you from the standpoint of the allies and those that we are 
defeating, or is it just more Congress getting behind the 
effort in a bipartisan way?
    General Allen. Well, I think it is the latter.
    The Chairman. Yes. Well, listen, I called you over the 
weekend when I knew you were on your way to Kuwait. I know you 
are your way to CENTCOM now. I think you can tell by the 
respect that everyone has shown you today we all view you as 
someone who is an outstanding public servant. We appreciate the 
way you have gone about your work.
    I know it is difficult. I know that decisions do not always 
get made in the manner or in the timeframe that someone like 
you that wants to seek this--get this done in the appropriate 
way. But I think your demeanor, the way you talk with all of us 
is certainly very, very well received. We wish you well in what 
you are doing, and hope you will be before us again soon to 
update us.
    General Allen. Honored to be with you today, Chairman.
    The Chairman. Thank you.
    General Allen. Thank you, sir.
    The Chairman. Thank you.
    General Allen. Have a good day, sir.
    The Chairman. And with that, the record will be open until 
Friday for any questions.
    The Chairman. We would ask that you and your staff respond 
to those in a fairly timely fashion.
    And the meeting is adjourned.
    [Whereupon, at 3:13 p.m., the hearing was adjourned.]

             Responses of Gen. John R. Allen to Questions 
                    Submitted by Senator Bob Corker

    Question. Can you please explain the command structure for the 
fight against ISIS? Do you believe there is a coherent chain of command 
aligning all elements of American and coalition power against the 
threat?

    Answer. Because the answer to this question is outside the 
Department of State's purview, we must respectfully defer to the 
Department of Defense for a response.

    Question. Do you believe an authorization for the use of force 
should include authority to strike the Syrian regime?

    Answer. The President has been clear that he wants to work with 
Congress on a bipartisan, ISIL-specific AUMF. That is the immediate 
focus. Consistent with that focus, the administration's proposed AUMF 
would provide authority for the military mission we are currently 
undertaking in Iraq and Syria against ISIL.
    We believe that Assad has lost the legitimacy to govern, but we are 
not asking for authority to use force against the Assad regime.
    The nature and extent of the support the United States is prepared 
to provide to the Syrian forces we train is critically important and 
under active consideration. We plan to provide a level of support that 
is sufficient to support the objectives of the T&E program.

    Question. Do you believe an authorization for the use of force 
should be limited by time?

    Answer. The President's goal is to secure the passage of a 
bipartisan, limited, ISIL-specific AUMF that will provide a clear 
signal to the American people, to our allies, and to our enemies that 
the United States stands united behind the effort to degrade and 
ultimately defeat ISIL. The President has developed and transmitted to 
the Congress an AUMF that reflects bipartisan input and contains 
reasonable limitations and that provides the flexibility he needs to 
successfully pursue the armed conflict against ISIL.
    Although the confrontation with ISIL will not be over quickly, the 
President believes that 3 years is an appropriate period of time in 
order to allow the next President, the Congress, and the American 
people to assess the progress we have made against ISIL and review the 
authorities we have in place.

    Question. Do you believe Shia militias in Iraq are, or will be, a 
threat to Americans in Iraq?

    Answer. The protection of our people is paramount. That is why the 
Department of State and the Department of Defense have taken 
precautions to mitigate a wide range of risks in Iraq to the level 
where our personnel can operate safely and effectively. Our Embassy and 
consulates in Iraq maintain a strong and robust security posture in 
Iraq and we work closely with the Department of Defense on contingency 
planning. Security at the missions in Iraq include Diplomatic Security 
Special Agents, Security Protective Specialists, Marine Security 
Guards, Marine Security Augmentation Unit personnel, Worldwide 
Protective Service armed movement security and static personnel, local 
guards, and host nation security forces. We refer you to Department of 
Defense for details about their specific security previsions at 
coalition military sites in Iraq.
    Shia volunteers are an important element of the fighting force 
against ISIL inside Iraq. Although some of these groups predate the 
current crisis, many of these militia forces formed last summer as a 
result of Grand Ayatollah Sistani's call for volunteers when Baghdad 
and other major cities were under imminent threat. They have since 
continued to play a key role in the Government of Iraq's efforts to 
retake its sovereign territory from ISIL.
    However, given the history of some of these groups targeting U.S. 
personnel and facilities in Iraq prior to 2012, as well as recent 
allegations of abuses against Iraqi civilians, we do have concerns 
about some of these militias. We have a continuing dialogue with the 
Iraqi Government about these concerns and the necessity for all 
militias to be brought under the command and control of the Iraqi 
security forces.
    Prime Minister Abadi has stated that he has a zero tolerance policy 
of human rights abuses and all armed groups and militias should be 
incorporated under state security structures. The draft National Guard 
law approved by the Council of Ministers on February 3 is a step toward 
this objective, and, once implemented, an Iraqi National Guard 
structure will ensure greater oversight and regulation of these armed 
elements.

    Question. How does the administration define success in Iraq and 
Syria? Can you explain the terms defeat, destroy, disable and contain 
as they relate to an end state in Iraq and Syria? Which terms align 
best with the administration's goals in Iraq and Syria?

    Answer. Our Counter-ISIL strategy aims to degrade ISIL in Iraq and 
Syria over the course of a multiyear timeframe, leading to its eventual 
defeat.
    Degrading ISIL involves suppressing its ability to conduct large-
scale operations. In the immediate to medium term, conducting military 
operations to halt and reverse ISIL's territorial expansion; reducing 
its capability to resource, plan and execute offensive and/or terrorist 
attacks; diminishing its capacity to generate funding; and restoring 
legitimate governance and security in Iraq will all have the effect of 
degrading ISIL's capacity.
    In the longer term, the defeat of ISIL will come when it no longer 
has a safe haven from which to operate, when it no longer poses an 
existential threat to Iraq and other states in the region, and when the 
coalition effectively counters its global reach in spreading its 
message and ideology of hate, thus preventing it from regenerating over 
time. With regard to fully eradicating, annihilating or destroying all 
remnants of ISIL, like other terrorist groups before it, there will 
likely be some residue of the organization for a long time to come. We 
do not refer to disabling or containing ISIL.
                                 ______
                                 

             Responses of Gen. John R. Allen to Questions 
                    Submitted by Senator Marco Rubio

    Question. How many countries is ISIL currently present in? Would 
you agree that we need an AUMF that is not specific to just Iraq and 
Syria?

    Answer. ISIL's strongholds are in Iraq and Syria; however, ISIL 
seeks to extend its reach, and that is something we are monitoring 
closely.
    The administration's proposed AUMF does not include a geographic 
limitation, as we believe it would be a mistake to advertise to ISIL 
that there are safe havens for them outside of Iraq and Syria by 
limiting the proposed AUMF to specific countries.

    Question. Will ISIL be defeated by 2018?

    Answer. Our Counter-ISIL strategy aims to degrade ISIL in Iraq and 
Syria over the course of a multiyear timeframe, leading to its eventual 
defeat. This will be a long-term effort, and it would be premature at 
this point to assign a completion date to it.
    Degrading ISIL involves suppressing its ability to conduct large-
scale operations. In the immediate to medium term, conducting military 
operations to halt and reverse ISIL territorial expansion; reducing its 
capability to resource, plan and execute offensive and/or terrorist 
attacks; diminishing its capacity to generate funding; and restoring 
legitimate governance and security in Iraq will all have the effect of 
degrading ISIL's capacity.
    The defeat of ISIL will come in the longer term, when it no longer 
has a safe haven from which to operate, when it no longer poses an 
existential threat to Iraq and other states in the region, and when the 
coalition effectively counters its global reach in spreading its 
message and ideology of hate, thus preventing it from regenerating over 
time. Like the process of degrading ISIL, defeating ISIL must also take 
place over a multiyear timeframe.

    Question. What is your understanding of the definition of 
``enduring offensive ground combat operations'' in the White House's 
proposed AUMF?

    Answer. As the President noted in his letter transmitting the 
proposed AUMF to the Congress, the proposal would not authorize long-
term, large-scale ground combat operations like those our Nation 
conducted in Iraq and Afghanistan. As I testified before this committee 
in December, such operations will be the responsibility of local forces 
because that is what our local partners and allies want, that is what 
is best for preserving our international coalition, and most 
importantly, that is in the best interest of the United States.
    The President has been clear, however, that there always may be 
exigent or unforeseen circumstances in which small numbers of U.S. 
forces may need to engage in limited or short duration ground combat 
operations, for example, to protect and defend U.S. personnel or 
citizens. The proposed AUMF would therefore provide the flexibility to 
conduct ground combat operations in other, more limited circumstances, 
such as rescue operations involving U.S. or coalition personnel or the 
use of special operations forces to take military action against ISIL 
leadership. The proposal would also authorize the use of U.S. forces in 
situations where ground combat operations are not expected or intended, 
such as intelligence collection and sharing, missions to enable kinetic 
strikes, or the provision of operational planning and other forms of 
advice and assistance to partner forces.
    As the ground combat limitation is focused on major operations--
long-term, large-scale--the proposal would provide the authority and 
the flexibility required to perform the mission.

    Question. Why would we not authorize the President to simply 
achieve a mission rather than telling him to do so in a certain time 
period and only using certain means?

    Answer. The President's goal is to secure the passage of a 
bipartisan, limited, ISIL-specific AUMF that will provide a clear 
signal to the American people, to our allies, and to our enemies that 
the United States stands united behind the effort to degrade and 
ultimately defeat ISIL. The President has developed and transmitted to 
the Congress an AUMF that reflects bipartisan input and contains 
reasonable limitations and that provides the flexibility he needs to 
successfully pursue the armed conflict against ISIL.
    Although the proposed AUMF would not authorize long-term, large-
scale ground combat operations like those our Nation conducted in Iraq 
and Afghanistan, it would provide the flexibility to conduct ground 
combat operations in other, more limited circumstances, such as rescue 
operations involving U.S. or coalition personnel or special operations 
forces to take military action against ISIL leadership. The proposal 
would also authorize the use of U.S. forces in situations where ground 
combat operations are not expected or intended, such as intelligence 
collection and sharing, missions to enable kinetic strikes, or the 
provision of operational planning and other forms of advice and 
assistance to partner forces.
    In addition, although the confrontation with ISIL will not be over 
quickly, the President believes that 3 years is an appropriate period 
of time in order to allow the next President, the Congress, and the 
American people to assess the progress we have made against ISIL and 
review these authorities again.
    We therefore believe that the proposed AUMF provides the authority 
and the flexibility required to perform the mission.

    Question. You commanded U.S. forces in Afghanistan and Iraq. Put 
yourself in your former positions as a commander. Do you believe that 
it makes sense for politicians to prematurely tell our military how 
they need to win a military conflict?

    Answer. Civilian control over the military is a bedrock principle 
of the Constitution. We are strongest as a nation when the 
administration and Congress work together on issues as serious as the 
use of military force.
    The President proposed AUMF contains reasonable limitations and 
that would provide him with the flexibility to direct our military in 
successfully pursuing the armed conflict against ISIL.
    Over the past several weeks, we have engaged in substantial 
consultations with Congress regarding the AUMF. We look forward to 
continuing to work with the Congress on this issue.

    Question. How many countries was ISIL present in last August when 
coalition operations began?

    Answer. From the evidence we have seen, ISIL had an operational 
presence in Iraq, Syria, and Lebanon in August 2014. The international 
community and the Global Coalition continue to diminish ISIL's capacity 
to generate revenues and fund its operations, cut off the flow of 
foreign terrorist fighters transiting to Iraq and Syria, and expose its 
empty and destructive ideology.
    In fact, since September 2014, coalition efforts have forced ISIL 
to change its tactics and it is suffering significant losses, reducing 
its morale and challenging its ongoing propaganda campaigns.

    Question. Why has ISIL continued to expand its reach despite our 
military operations?

    Answer. While military operations against ISIL have succeeded in 
significantly reducing the area of ISIL-held territory in Iraq, a 
number of terrorist groups in other part of Muslim-majority countries 
have chosen to affiliate themselves with ISIL. These new ISIL 
affiliates do not appear to be established by an influx of ISIL 
militants, but rather, by a rebranding of already existing violent 
extremist organizations as ISIL franchises. We are monitoring the 
situation carefully to ascertain the extent to which these new 
affiliates benefit materially and doctrinally from their association 
with ISIL.
    The strategy to combat these ISIL-related groups outside of Iraq 
and Syria leverages the broad capabilities of the United States, 
coalition members, and international partners across the globe. The 
strategy rests on the foundation of degrading and then destroying the 
self-proclaimed ``Islamic State.'' Coalition efforts in Iraq and 
Syria--such as helping Iraqi security forces reclaim territory held by 
ISIL, suppressing ISIL's ability to conduct large-scale operations, 
degrading its command, control and logistics capabilities, and building 
the political foundations for long-term security--will inhibit the 
group's capability to operate globally and expand.
    Beyond Iraq and Syria, the international community and the global 
coalition continue to diminish ISIL's capacity to generate revenues and 
fund its operations, cut off the flow of foreign terrorist fighters 
transiting to, and from, Iraq and Syria, and expose its empty and 
destructive ideology. Starving any new ISIL-related groups of funds and 
manpower reduces any of the groups' opportunity to expand or conduct 
attacks against our international partners. Following meetings with 
coalition members which Secretary Kerry chaired in December and January 
, coalition working groups are now coordinating combined efforts to 
address ISIL's finances, foreign fighter draw, and messaging and 
thereby diminish ISIL's global potential.
    As these ISIL-related groups have emerged, the United States has 
also been working closely with our partners to reduce the safe havens 
that many of these groups exploit, build effective governance and 
security, strengthen the capacity of our partners to deal with these 
threats internally, enhance economic opportunity, and disrupt any 
plots.

    Question. What is the strategy and timetable for an Iraqi security 
forces offensive to recapture Mosul and other areas still held by ISIL?

    Answer. Any offensive will not begin until the Iraqis have 
determined they are ready. We are focused on getting the Iraqi security 
forces (ISF) adequately trained and equipped and the plan synchronized. 
This training is a critical component to our ultimate success because 
it is what will help generate durable security that exists beyond our 
direct military engagements.
    Any action on Mosul or other areas needs to be methodical, 
coordinated, and planned properly. We are working with the Government 
of Iraq on isolating Mosul by cutting ISIL's lines of communication, 
eroding its forces through the air campaign, building combat power 
through the Building Partner Capacity sites, and helping with planning 
and synchronizing all of these elements to set the conditions for an 
offensive.
    I would refer you to the Department of Defense and the Government 
of Iraq for any future operational planning, but as we have said, any 
operation on Mosul would be Iraqi-led and we are committed to working 
with the Iraqi security forces to degrade and defeat ISIL.
    The timing of a campaign to liberate Mosul in relation to other 
important population centers and infrastructure in Iraq will depend on 
the political and military conditions on the ground and require 
strategic flexibility. Regardless of timing, our shared goal is clear: 
the defeat of ISIL and ensuring that ISIL can no longer pose a threat 
to the people of Iraq and to other countries in the region.

    Question. What is the U.S. strategy to combat the rise of ISIS in 
other countries outside of Iraq and Syria?

    Answer. The strategy to combat ISIL and related groups outside of 
Iraq and Syria rests on the coalition efforts within Iraq and Syria. In 
Iraq, the coalition is helping Iraqi security forces reclaim territory 
held by ISIL, suppressing ISIL's ability to conduct large-scale 
operations, degrading its command, control, and logistics capabilities, 
and building the political foundations for long-term security. In 
Syria, more than 1,200 coalition airstrikes against ISIL targets have 
destroyed ISIL vehicles and buildings, have degraded its economic 
infrastructure, and have defended local forces contesting ISIL 
advances, such as in Kobani. Our efforts in Syria will deny ISIL safe 
haven while creating the conditions for a stable inclusive Syria that 
fulfills Syrian's aspirations for freedom and dignity. Our counter-ISIL 
strategy in both countries will inhibit the group's capability to 
operate globally and expand. In fact, since September 2014, coalition 
efforts have forced ISIL to change its tactics and it is suffering 
significant losses, reducing its morale, and challenging its ongoing 
propaganda campaigns.
    Beyond Iraq and Syria, the international community and the global 
coalition continue to diminish ISIL's capacity to generate revenues and 
fund its operations, cut off the flow of foreign terrorist fighters 
transiting to, and from, Iraq and Syria, and expose its empty and 
destructive ideology.
    Starving any new ISIL-related groups of funds and manpower 
mitigates the risk of attacks against our international partners. Over 
the past 6 months, the international community has been increasing its 
efforts to expose the true nature of ISIL to reduce its draw to foreign 
fighters and other extremist groups. Similarly, international 
organizations and local communities across the globe are also 
increasingly working to minimize the influence of this hateful rhetoric 
and insulate potentially vulnerable sectors of populations. Following 
meetings with coalition members which Secretary Kerry chaired in 
December and January, coalition working groups are now coordinating 
combined efforts to address ISIL's finances, foreign fighter draw, and 
messaging and thereby diminish ISIL's global potential.
    As these ISIL-related groups have emerged, the United State has 
also been working closely with our partners to reduce the safe havens 
that many of these groups exploit, build effective governance and 
security, strengthen the capacity of our partners to deal with these 
threats internally, enhance economic opportunity, and disrupt any 
plots. The United States continues to emphasize the importance of a 
multifaceted, multinational approach to addressing ISIL and other 
extremist groups.

    Question. The administration has built its strategy against ISIL 
around the notion that local partners will be trained and equipped to 
do much of the fighting, yet many key partners continue to complain 
about the level of support and communication they receive from the U.S. 
Government. The Kurds continue to request additional weapons, Sunni 
tribes in Iraq and Syria complain that their communities have endured 
massacres at the hands of ISIL, yet their requests for assistance have 
not been responded to. Meanwhile, the Syrian opposition has faced 
significant setbacks on the battlefield and they have raised 
fundamental concerns about U.S. strategy in Syria.

  <diamond> How do you address these criticisms?

    Answer. Our military support to our local partners in Iraq remains 
steadfast and suggestions to the contrary do not reflect what we have 
witnessed so far. As the President has stressed, the campaign to 
degrade and defeat ISIL will take time, however, we have been able to 
reverse ISIL's momentum and the Iraqis continue to retake territory.
    Through more than 2,700 coordinated coalition airstrikes in support 
of our partners on the ground, we have degraded ISIL's leadership, 
logistical, and operational capabilities, and are denying sanctuary in 
Iraq from which it can plan and execute attacks. Over 1,800 American 
and international troops, from a dozen countries, are training Iraqi 
and Kurdish security forces at Building Partner Capacity (BPC) sites 
around the country. Prime Minister Abadi has stated his appreciation 
for U.S. and coalition assistance on a number of occasions.
    Regarding U.S. assistance to the Kurds in Iraq, U.S. military 
personnel are providing support for ISF and peshmerga on planning 
ground operations, intelligence-sharing, integrating air support into 
their operations, logistics planning, command and control, and 
communications. We established a Joint Operations Center in Erbil that 
has facilitated unprecedented cooperation between the KRG, Iraqi 
Government, and U.S. forces, and sent U.S. advise-and-assist teams to 
partner with peshmerga for operational planning. The Iraq Train and 
Equip Fund (ITEF) will provide an estimated $350 million to train and 
equip Kurdish brigades. To date, the coalition has provided the Kurds 
nearly 50 million rounds of light and heavy ammunition; 24,000 hand 
grenades; 47,000 mortar rounds; 50,000 RPG cartridges; and 18,000 
rifles. This is in addition to the more than 300 tons of arms and 
ammunition that the Government of Iraq itself provided and delivered to 
the Kurds. We have also provided 25 MRAPs to our Kurdish partners. 
Hundreds of air strikes have supported the Kurds, striking ISIL 
elements in Mosul, near Sinjar Mountain, and other areas of northern 
Iraq providing relief to Kurdish forces and strategic opportunities to 
fight back against ISIL.
    ITEF also allocates funding for the equipping of GOI-approved Sunni 
tribal fighters. On Sunni communities specifically, through our 
airstrikes and advise-and-assist teams, we have helped to protect key 
terrain and regain ground at Mosul Dam and around Haditha Dam in Anbar 
province. We also helped break the siege of Dhuluyia with airstrikes in 
support of Iraqi security forces and Sunni tribes when ISIL had that 
town surrounded. While we recognize that a variety of logistical 
challenges remain, we are working with the Government of Iraq to 
overcome these.

    Question. Given the central focus of our strategy on empowering 
local allies to combat ISIL, why have we been so slow to provide the 
Jordanians, Kurds, and others with requested assistance?

    Answer. Jordan has been a critical partner to the United States for 
many years. In support of our renewed Memorandum of Understanding 
signed by Secretary Kerry and Foreign Minister Judeh on February 3, we 
recently released $300 million in FY15 Foreign Military Financing 
several months earlier than it is generally released for other FMF 
recipient countries. We expect to provide additional FY15 FMF to Jordan 
once the post-appropriation allocations are finalized. And we are 
expediting delivery of a wide variety of military equipment.
    The U.S. military is also directly enabling Jordanian counter-ISIL 
air strikes by providing targets, intelligence, fuel and training on 
refueling operations, dropping precision guided munitions, and night 
operations. This supplements long-standing military-to-military support 
and cooperation, such as U.S. Special Operations Forces training of 
their Jordanian counterparts and U.S. Army and Marine individual, 
collective, and unit training focused on border security techniques, 
tactics, and procedures for five Jordanian brigade- and battalion-sized 
formations.
    Jordan's contributions to the global coalition against ISIL 
underline the continued importance of our bilateral partnership; the 
Departments of State and Defense have mobilized to support these 
Jordanian operations. Jordan has increased its anti-ISIL military 
operations following the appalling murder of its pilot, Captain Moaz 
al-Kasasbeh, and we have increased our efforts to coordinate with the 
JAF to further specify and prioritize its requirements. We have taken 
the following steps to support Jordan:

  <bullet> To ensure Jordan can continue its airstrikes, we have 
        expedited delivery of more than 200 bombs for its F-16s months 
        early, with hundreds more on the way.
  <bullet> To help Jordan prepare for ground combat contingencies, on 
        February 7, the United States delivered to Jordan 20,000 
        rifles, 6,746 machine guns, and over 1 million rounds of small 
        arms ammunition. One-thousand night vision devices are being 
        drawn from U.S. military stocks and will be delivered to Jordan 
        soon.
  <bullet> We have notified Congress of our intent to provide eight 
        Blackhawk helicopters to Jordan though a 2-year, no-cost lease 
        as we pursue options to provide a larger, permanent capability 
        in the long-term.
                           kurdish assistance
    We have enormous respect for the courage the Kurds have shown and 
the fight they have taken to ISIL in Iraq and Syria. In coordination 
with the Government of Iraq, the United States and the coalition have 
been very supportive of Iraqi Kurdish forces, and coalition airstrikes 
were key to defeating an ISIL attempt to take the predominantly Kurdish 
city of Kobane in Syria.

  <bullet> In Iraq, we have organized a coalition effort that to date 
        has provided nearly 50 million rounds of light and heavy 
        ammunition; 24,000 hand grenades; 47,000 mortar rounds; 50,000 
        RPG cartridges; and 18,000 rifles. Thousands more rounds of 
        ammunition and weapons have been identified for donation and 
        are being prepared for delivery. This is in addition to the 
        more than 300 tons of arms and ammunition that the Government 
        of Iraq itself provided and delivered to the Kurds. We have 
        also provided 25 MRAPs to our Kurdish partners.
  <bullet> Additionally, we will provide an estimated $350 million of 
        ITEF to train and equip Kurdish brigades. While no equipment 
        has yet been delivered under ITEF, these units will receive the 
        same weapons, vehicles, and equipment as the Iraq Army forces: 
        small arms, mortars, HMMWVs, cargo trucks, trailers, radios. 
        Training began in Erbil in December.
  <bullet> Hundreds of air strikes have supported peshmerga forces, 
        striking ISIL elements in Mosul, near Sinjar Mountain, and 
        other areas of northern Iraq providing relief to Kurdish forces 
        and strategic opportunities to fight back against ISIL.
  <bullet> We established a Joint Operations Center in Erbil that has 
        facilitated unprecedented cooperation between the KRG, Iraqi 
        Government, and U.S. forces, and sent U.S. and coalition 
        advise-and-assist special forces teams to partner with 
        peshmerga forces for operational planning.
  <bullet> We will continue to evaluate the needs of all of Iraq's 
        security forces, including the Kurdish security forces, to 
        ensure that they have the necessary weapons to defeat ISIL.
  <bullet> In Syria, we provided critical assistance to the Kurdish and 
        Free Syrian Army forces defending the city of Kobane from ISIL 
        advances. We launched more than 700 airstrikes to target ISIL 
        positions and equipment, enabling the Kurdish ground forces to 
        enhance the town's defenses, to prevent ISIL from attacking, 
        and to extend security in the areas around Kobane. In addition, 
        the United States bolstered Kobane's defenders by air with 
        supplies provided by Kurdistan Regional Government authorities 
        in Iraq, in addition to facilitating the entry of Iraqi 
        peshmerga forces into northern Syria to assist those defending 
        Kobane.
  <bullet> Following ISIL's defeat in Kobane, military airstrikes in 
        the vicinity of Kobane continue to support the efforts of 
        Kurdish and Free Syrian Army forces to push ISIL from the 
        surrounding areas.

    Question. A key component of our strategy is the train-and-equip 
effort related to Syria. What pledges is the administration making to 
those Syrian rebel forces that agree to participate in coalition 
training programs regarding air support and ultimate plans to fight the 
Assad regime?

    Answer. Our effort to equip appropriately vetted Syrian opposition 
elements has specific objectives: to defend the Syrian people from 
attacks by ISIL and secure territory controlled by the Syrian 
opposition; to protect the United States, its friends and allies, and 
the Syrian people from the threats posed by terrorists in Syria; and to 
promote the conditions for a negotiated settlement to end the conflict 
in Syria. We are committed to the success of the personnel we will 
train. The nature and extent of the support the United States is 
prepared to provide to those forces are critically important and under 
active consideration.

    Question. Does the AUMF, as currently drafted, allow U.S. forces to 
provide defensive assistance to trained Syrian opposition forces from 
all of the threats they face, including from the Assad regime?

    Answer. The President has been clear that he wants to work with 
Congress on a bipartisan, ISIL-specific AUMF. That is the immediate 
focus. Consistent with that focus, the administration's proposed AUMF 
would provide authority for the military mission we are currently 
undertaking in Iraq and Syria against ISIL.
    We believe that Assad has lost the legitimacy to govern, but we are 
not asking for authority to use force against the Assad regime.
    The nature and extent of the support the United States is prepared 
to provide to the Syrian forces we train is critically important and 
under active consideration. We plan to provide a level of support that 
is sufficient to support the objectives of the T&E program.

    Question. What is Iran's level of control over the Shiite militias 
that have been mobilized to defend Baghdad and other areas in southern 
Iraq?

    Answer. The threat of ISIL in Iraq has provided Iran with the 
opportunity for unprecedented cooperation with the Government of Iraq. 
However, Iranian influence in Iraq is not new. Iran has been a major 
player there since 2003.
    Shia volunteers are an element of the fighting force against ISIL 
inside Iraq. Many are militia forces that formed last summer as a 
result of Grand Ayatollah Sistani's call for volunteers when Baghdad 
and other major cities were under imminent threat. Iran wields varying 
degrees of influence over these many different Iraqi Shiite militias, 
from high to negligible.
    Where influence exists, it may not extend throughout the entire 
command structure of a militia making some members nonresponsive to 
Iranian direction.

    Question. How would you characterize the role that Iran is 
currently playing in the fight against ISIL in Iraq? What level of 
coordination is there between coalition forces and Iran?

    Answer. Iran is providing significant military support to the Iraqi 
security forces, Iraqi Shia volunteers and militias, and Kurdish forces 
in the form of weapons, combat advisors, training, intelligence, 
artillery support, and a handful of airstrikes. Iran is seeking to 
leverage and publicly highlight its military support in the counter-
ISIL campaign for additional influence in Iraq.
    Iran has channeled most of its support to Iraqi Shia groups under 
the Popular Mobilization Committee (PMC), upon which the Iraqi 
Government has relied heavily in recent counter-ISIL operations. The 
PMC is comprised of many untrained Iraqi volunteers, to include some 
Sunni tribes, as well as more hard-line sectarian militias heavily 
influenced by Iran. The Government of Iraq is seeking to differentiate 
between Iranian proxy groups and Iraqi volunteers in an effort to limit 
Iran's influence and gain better control over the security forces.
    We recognize that Iraq and Iran share a long physical border, and 
that Iraq and Iran will have a relationship. And it is also clear that 
ISIL is a threat to the entire region, including Iran, and we 
understand that Iran is pursuing its own actions against ISIL in Iraq. 
But to adequately address the threat posed by ISIL and ensure long-term 
stability in Iraq, ISIL can only be defeated by an integrated and 
capable Iraqi security force backed by a unified Iraq.

    Question. What is Iran's current relationship toward the Assad 
regime in Syria and to ISIL forces in Syria?

    Answer. Iran has been a critical support line to the Assad regime, 
providing not only funds and weapons, but also strategic guidance, 
technical assistance, and training. This support has enabled the regime 
to continue its repression and slaughter of tens of thousands of 
Syrians, which has also fostered the emergence and expansion of 
extremist groups such as ISIL. Many analysts assess that Iran's 
assistance has been crucial to helping the Assad regime survive to 
date.
    We know that Iran is supplying arms to the Syrian regime in 
violation of the U.N. Security Council prohibition against Iran selling 
or transferring arms and related materials, including through flights 
over Iraqi territory.
    This issue has been raised with Iraqi officials by Secretary Kerry 
and other senior U.S. officials, emphasizing the connection between the 
flow of weapons and the escalation of extremist violence in the region, 
particularly in Syria. We have urged that Iraq either deny overflight 
requests for Iranian aircraft going to Syria, or require such flight to 
land in Iraq for credible inspections, consistent with its 
international legal obligations.

    Question. ISIS is now a threat to all Syrians and Iraqis regardless 
of their religious faith, but the smallest religious communities, 
including Catholics, Syriac Christians, Protestants, Yazidis, and 
Sabean Mandaeans, face an existential threat. ISIS has committed 
countless acts of crimes against humanity, including murder through 
beheadings, enslavement of women and children, and torture.

  <diamond> How can the United States and its coalition partners 
        protect the smallest communities from complete eradication in 
        Syria, Iraq, or anywhere else ISIS is a threat? How can the 
        United States best work with our partners to help ensure the 
        region's religious diversity and the protection of freedom of 
        religion or belief?

    Answer. The United States has long been concerned about the safety 
and rights of members of Iraq's and Syria's vulnerable populations, 
including members of religious and ethnic minorities. Protecting these 
communities and others in the face of the existential threat from ISIL 
is one of the priorities of our counter-ISIL strategy and of the 62-
nation international counter-ISIL coalition, as well a part of our 
regular diplomatic engagement.
    The United States and certain coalition partners have conducted a 
campaign of coordinated airstrikes against ISIL, and the coalition also 
has undertaken military assistance, diplomatic engagement, and 
intelligence and messaging coordination to defeat, degrade, and 
delegitimize ISIL. Through these actions, we have dealt ISIL strategic 
blows, halting its advances and preventing atrocities, beginning with 
the airstrikes President Obama announced August 7, 2014, to help the 
Yezidis stranded on Mt. Sinjar, and followed by airstrikes and the 
delivery of relief supplies to the Shia Turkmen in Amerli.
    The United States has regular and ongoing contact with leaders of 
minority religious groups in the United States and throughout the 
Middle East region to discuss their well-being and needs. The Office of 
International Religious Freedom in the Bureau of Democracy, Human 
Rights and Labor has been especially helpful in this outreach. Our 
contacts include Christian leaders, Yezidi activists, civil society and 
clergy members, minority diaspora, and advocacy groups. In Iraq, the 
U.S. Embassy in Baghdad and consulate general in Erbil are in daily 
contact with the Iraqi Government, the Kurdistan Regional Government, 
the U.N., and other humanitarian aid organizations in Iraq to ensure 
they do their utmost to reach and assist displaced Iraqis--including 
minorities.
    It is very difficult to reach areas of Syria and Iraq that are 
under the control of ISIL. Despite these challenges, the United States 
continues to work closely with humanitarian organizations to find ways 
to try to provide life-saving aid to those who need it. The U.N., which 
is overseeing the massive international effort to aid those fleeing 
areas in, or at risk of, conflict, is also in regular contact with 
minority groups and their leaders. Representatives of these communities 
have expressed the importance of not only food, shelter, and clean 
water, but of educational opportunities for children, job opportunities 
for young people, and medical services for displaced communities to 
avoid the need to relocate to a third country while ISIL is being 
defeated. The United States remains the single largest donor to the 
humanitarian response for Syria, contributing more than $3 billion in 
life-saving humanitarian aid to Syrian IDPs and refugees in the region 
since the crisis began. The United States also continues to be a 
primary donor to displaced Iraqis, contributing over $219 million since 
fiscal year 2014.
    In Iraq, we are working with the Government of Iraq, the U.N., and 
our coalition partners to create the conditions for the displaced to 
return to their homes as soon as possible, and we will continue to 
press the Government of Iraq and support its efforts to ensure that 
minority communities are able to return to their homes in peace. This 
includes support for Prime Minister Abadi's efforts to devolve power 
from the federal government to provincial and local authorities as an 
important mechanism for protecting the rights of all Iraqis and to 
preserve the unity and long-term stability of Iraq. We are also 
encouraging the establishment of an Iraqi National Guard, which would 
provide a stable mechanism for local communities, including minority 
communities, to take more responsibility for their own protection while 
receiving the resources and training needed to do so. In Syria, the 
United States will continue to work toward a negotiated political 
solution that produces a stable, inclusive Syria for people of all 
ethnic and religious identities, a Syria free from the tyranny of the 
Assad regime and the terror of ISIL.

    Question. ISIL's extremist ideology disallows any religious 
diversity or religious freedom. Increasingly, minority communities, 
especially in Iraq, report they will not attempt to return after years 
of targeting because they simply do not trust the government or their 
neighbors.

  <diamond> How are issues of religious freedom, human rights, 
        interfaith dialogue, or respect for diversity and pluralism 
        being made part of the strategy to fight against ISIS?

    Answer. We will not degrade and defeat ISIL through military effort 
alone. An important component of our work requires promotion of an open 
and inclusive society, which can win out against its repressive and 
divisive ideology. This demands a society that respects the rights to 
all citizens regardless of religious identity or other distinction, and 
that also respects diversity, including members of religious and ethnic 
minorities, women, and those voicing different political views.
    In Iraq, Prime Minister Abadi has made important strides to reduce 
sectarian tensions and promote inclusivity including, for example, the 
proposed National Guard law, his statements regarding a ``zero 
tolerance'' policy for human rights violations, and his efforts to 
incorporate militias into existing security structures, as well as his 
Executive order to adhere to Iraqi law regarding the time detainees may 
be held in custody--a key concern of the Sunnis. We will support him in 
these efforts and urge him to implement them.
    We are working to promote and establish an inclusive, rights-
respecting governance system in Iraq, especially in regards to the 
security forces, to prevent marginalization and minimize sectarian 
hostilities. We seek the same thing in Syria through a negotiated 
political solution that fulfills Syrians' aspirations for freedom and 
dignity. These efforts include focusing on respect for human rights in 
our engagements with military and civilian leaders and incorporating 
law of armed conflict training in our plans to train and equip both 
Iraqi security forces and vetted elements of the Syrian opposition.
    We are supporting the Iraqi Government and civil society to 
reconstitute those areas that have been liberated from ISIL control 
with those communities who were forced to flee, rebuilding toward 
tolerance and peaceful coexistence. Our projects engage and support 
members of religious and ethnic minorities in Iraq, aiming to increase 
community representation and participation by minorities, bolster 
advocacy on their behalf, and promote the peaceful rebuilding of Iraqi 
communities. In Syria we are supporting interim governance structures, 
as well as local and provincial councils, civil society organizations, 
and local security actors, setting a course toward a peaceful, 
democratic, inclusive future and helping establish the conditions for a 
political solution to this conflict. We also support programs to 
empower religious and ethnic minorities and promote tolerance and 
reconciliation to counter rising sectarian tensions, among others; for 
instance, we have hosted multiple Syrian interfaith conferences and 
activities both in the United States and in the region that featured 
prominent Syrian clergy of all backgrounds with large followings. 
Additionally, the Department of State played a key role in the White 
House-hosted summit on Countering Violent Extremism in February 2015, 
which Syrian and Iraqi civil society and clergy representatives 
attended and which has resulted in renewed attention to role of 
governance and human rights in the fight against violent extremism.

                                  [all]
                                  
                                  
</pre></body></html>
